<html>
<title> - DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2020</title>
<body><pre>[Senate Hearing 116-]
[From the U.S. Government Publishing Office]




 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2020

                              ----------                              


                        WEDNESDAY, MAY 15, 2019

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    The subcommittee met at 9:30 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Lisa Murkowski (Chairman) 
presiding.
    Present: Senators Murkowski, Daines, Udall, and Merkley.

                          U.S. FOREST SERVICE

              OPENING STATEMENT OF SENATOR LISA MURKOWSKI

    Senator Murkowski. Good morning, everyone. The subcommittee 
will come to order.
    Today we are reviewing the fiscal year 2020 budget proposal 
for the Forest Service. I am pleased to welcome Chief Vicki 
Christiansen to testify before us today. I am also welcoming 
John Rapp who serves as the Director of the Office of Strategic 
Planning, Budget, and Accountability at the Forest Service, 
accompanying the Chief. Thank you both for being with us here 
today.
    The budget request for Forest Service for fiscal year 2020 
is $5.14 billion. This request is $947 million less than the 
enacted level, not including the $1.95 billion proposed to be 
made available by the wildfire budget cap adjustment. Including 
the wildfire cap adjustment brings the overall Forest Service 
total to $7.09 billion.
    Fiscal year 2020 marks the first year of availability for 
the wildfire cap adjustment that was created by the fiscal year 
2018 Omni. The cap adjustment will allow the Forest Service to 
address fire suppression needs without disrupting programmatic 
activities.
    I am pleased that we have this mechanism available, 
finally, to stop the fire borrowing and the repayment cycle, as 
well as to stop the accompanying lack of budget certainty and 
discipline.
    The creation of the wildfire cap adjustment is about more 
than just adequately funding wildfire suppression. It is about 
making sure the Forest Service can deliver on its multiple-use 
mission.
    Now that we have the ability to fund wildfire without fire 
borrowing, it is time for us to focus on working with the 
Service to modernize and improve your budget structure.
    Securing a cap adjustment was the first phase in increasing 
transparency and accountability for your budgeting practices, 
and the Forest Service took another important step by proposing 
a budget restructure in the request.
    I will discuss this further in my questions, but I want to 
thank you, Chief and Mr. Rapp, for your willingness to work in 
a bipartisan and a bicameral way to improve the Service's 
ability to deliver results on the ground.
    The request places a heavy emphasis on Secretary Perdue's 
Shared Stewardship Initiative. This approach recognizes that we 
can be better stewards of our natural resources if States, 
local governments, and stakeholders work together towards 
common goals. I do hope the Shared Stewardship Initiative will 
really excel in improving wildfire resiliency in and around the 
wildland urban interface.
    Congress has routinely invested hundreds of millions of 
dollars annually in hazardous fuels reduction activities. I 
think we have some room for improvement here.
    I am pleased the Forest Service recognizes the importance 
of investing in recreation funding, and as you know, Chief, 
many of our communities in Alaska rely on the recreation 
industry for economic diversity, particularly in the southeast 
region.
    I am always disappointed to see subsistence activities cut 
in the budget request, and I want to go on record with my 
strong support for those activities.
    The Tongass National Forest, our largest national forest, 
unique in character from any other, is a rainforest made up of 
32 island communities. To address our unique characteristics 
and the challenges they present to the people who live and work 
there, we have been working with you and the State of Alaska on 
a Tongass-specific Roadless Rule.
    I want to take this opportunity to reiterate yet again to 
you that every elected official representing Southeast Alaska 
supports an exemption. From the Governor, to the State 
legislators, to the delegation here in Congress, this has never 
been a partisan issue for us. Alaskans know best what it takes 
to meet our needs, and we need relief from the Roadless Rule as 
it currently stands. Without relief, our communities will 
continue to struggle to grow jobs and a sustainable economy 
that they desperately, desperately need.
    As you continue to work with us on making the Tongass a 
working forest again, I do hope that you will use it as an 
opportunity to put the model of shared stewardship to work.
    Thank you for being here today with us, Chief. I look 
forward to your testimony. Again thank you for your willingness 
to serve.
    And with that, I turn to my colleague, Senator Udall.

                     STATEMENT OF SENATOR TOM UDALL

    Senator Udall. Thank you, Madam Chair, and, Chief 
Christiansen, welcome. Also glad to have you before the 
subcommittee for the first time. We did not have that 
opportunity last year because we moved quickly to markup, but 
it is great to have you here today.
    By moving quickly, Chairman Murkowski and I were able to 
bring the Interior bill to the Senate floor for the first time, 
and that is what happens when we come together. And I am 
hopeful we will do that the same this year.
    Senator Murkowski. Yes, yes.
    Senator Udall. We are committed to doing that.
    I would like to commend you for taking strong public 
actions in response to the reports of sexual harassment and 
discrimination within the ranks of the Forest Service. We know 
there is more work to be done to change the culture and ensure 
a safe workplace for all staff. We are here to give you the 
tools and resources you need to continue that effort.
    I share my Chairman's concerns about the wholly 
insufficient budget proposal the administration has saddled you 
with and sent you here to defend.
    Despite all we know about a changing climate and 
degradation of our public lands, despite the tools we gave you 
in the Wildfire Suppression Funding and Forest Management 
Activities Act that was part of our fiscal year 2018 Omnibus, 
and despite the additional authorities provided in the 2018 
Farm Bill, this proposed budget fails to make the investments 
needed to improve the conditions of our forests and watersheds 
or prevent pest disease and fire causing widespread havoc 
across the landscape.
    What makes this year's request particularly troubling is 
that fiscal year 2020 is the first fiscal year that the Forest 
Service is able to utilize the fire cap adjustment. This cap 
adjustment allows the Forest Service to budget for a set amount 
of fire suppression funding, and if the fire season is a bad 
one, as many have been lately, additional funding outside the 
discretionary budget caps becomes available. This means that we 
are finally putting a stop to fire borrowing, which siphons 
dollars that ought to be spent on their intended purposes.
    Access to the cap adjustment saves $654 million we 
appropriated for fire suppression in fiscal year 2019 that we 
can now use for other needs. While the Forest Service was not 
assured any of these discretionary savings from the fire cap, 
it was my hope that the administration would use a portion to 
reinvest in fire prevention and forest restoration so that we 
get ahead of the cycle of catastrophic fires that will only 
burn faster and hotter as climate conditions continue to 
change.
    So what did the administration do? They proposed a 
reduction of $948 million for the Forest Service, a 16 percent 
cut. The budget reduces or eliminates grants for States' forest 
action plans, fire assistance in urban forestry, volunteer fire 
department assistance, and community forest conservation. It 
recommends $45 million less for research, eliminating the 
Federal legacy in collaborative force landscape restoration 
programs, and no funding for the Land and Water Conservation 
Fund. These programs all work together to safeguard our 
forests.
    I am frustrated, frankly. I have seen firsthand what 
happens when wildfires tear through a community. In my home 
State, the Las Conchas and the Whitewater-Baldy fires scorched 
more than 300,000 acres, and this is happening all across the 
United States, with 8.7 million acres consumed by fire in 2018.
    Both 2017 and 2015 saw over 10 million acres burned. Sadly, 
this is the new normal.
    We here in Congress worked for years to resolve fire 
borrowing to free up discretionary spending for restoration, 
and now the administration wants to further gut the Forest 
Service budget.
    Let us think about that for a moment. At a time when 
wildfires are burning record levels of acreage, the Forest 
Service is cutting back on programs that help prevent fires. 
The only significant increase in the budget proposal is $15 
million for hazardous fuels reduction projects. We all agree 
that removing hazardous fuels is an effective fire prevention 
measure, but to provide that extra $15 million for hazardous 
fuels, the budget proposes to cut $15 million from State fire 
assistance.
    So the question is, What level of increased protection are 
we getting for $15 million more in hazardous fuels projects? 
Does it really reduce fire risk by such a factor that we can 
cut State fire grants by $15 million, volunteer fire assistance 
by $6 million, and cross-boundary forest health projects by $12 
million? Even worse, the budget estimate for the number of 
acres that can be treated with $450 million remains the same as 
fiscal year 2019 estimate of 3.4 million acres, when the budget 
proposed $387 million for this activity. I do not see how that 
improves our fire readiness.
    Congress enacted the fire cap to stop the Forest Service 
from turning into the fire service. I am concerned this budget 
would only speed up that transition. We should not jeopardize 
the future health of our forests by cutting programs that 
prevent fires through management and restoration of our 
National Forests and assisting States and private landowners to 
do the same.
    One concrete step we can take is to pass a supplemental 
that responds to the needs of all Americans suffering from 
national natural disasters. Both the House and Senate versions 
I support include repayment of the $720 million borrowed last 
year. Even though the administration has not requested 
repayment, it is important this funding is available for this 
summer.
    We also need your help, Chief, to extend the fire cap 
beyond its initial 2-year authority. I know that your fire 
chief is doing her utmost to clamp down on unnecessary costs, 
but waste, fraud, or abuse cannot be tolerated. Stories of 
misuse will not help extend what is an essential tool for 
combating the escalating needs to fight catastrophic fires and 
redirecting the Forest Service budget towards land management 
rather than just fire suppression.
    One bright spot in the budget proposal is the Public Lands 
Infrastructure Fund, which would support deferred maintenance 
needs by accessing energy development revenue not dedicated to 
the Land and Water Conservation Fund.
    In previous iterations of this proposal, the Forest Service 
has been left out, but this year's proposal includes all land 
management agencies and Bureau of Indian Education Schools. 
This is a positive change. I look forward to working on this 
issue to reduce the deferred maintenance backlog.
    I hope that working together once again, the Chairman and I 
can give you the resources to do the job that you and the 
Forest Service employees across the Country, from Hawaii to 
Alaska to New Mexico to Puerto Rico signed up for, and that is 
to help the American people enjoy and benefit from their public 
lands for generations to come.
    Thank you, Madam Chairman.
    Senator Murkowski. Thank you, Senator Udall.
    Chief Christiansen, we turn to you for your comments, and 
then we will have plenty of time for questions this morning. 
Again, thank you for being here, and we look forward to your 
statement.

            FISCAL YEAR 2020 FOREST SERVICE BUDGET PROPOSAL

STATEMENT OF VICKI CHRISTIANSEN, CHIEF, U.S. FOREST 
            SERVICE
ACCOMPANIED BY JOHN RAPP, DIRECTOR FOR STRATEGIC 
            PLANNING, BUDGET, AND ACCOUNTABILITY

    Ms. Christiansen. Madam Chairman, Ranking Member, thank you 
for inviting me to testify today. I do deeply appreciate your 
support to work on improving the conditions of the Nation's 
forests and grasslands through active management and innovation 
and not doing business as usual.
    Today, I will update you on three areas of our work: first, 
our progress in overcoming challenges and actively stewarding 
the forests and grasslands; our ground plan for 2020; and our 
work to champion a strong workforce and healthy workplace.
    In terms of our work on the ground, we are seeing results. 
We have made good use of funds, new authorities, and tools to 
do more to confront the threats facing forests and communities.
    We are building off a facility 20-year high in forest 
treatments last year, which yielded 3.2 billion feet of timber, 
and we also treated 3.4 million acres to reduce hazardous 
fuels, surpassing our annual target.
    Shared stewardship is fast becoming our preferred mode for 
doing work. It is our best chance in improving the health of 
all forests.
    We have reached out and worked across boundaries to reduce 
fire risk, improve forest conditions, and help communities.
    We have executed nearly 200 good-neighbor agreements in 37 
States to get more work done on the National Forests. We are 
forging shared stewardship agreements that set mutual goals and 
priorities at large scales.
    Secretary Perdue signed the first stewartship agreement 
with the Western Governors Association. We have recently signed 
shared stewardship agreements with Idaho and Washington State, 
and more are on the way.
    Internally, we are nearing completion of critical reforms 
that ease process burdens, reduce costs, and break the barriers 
that slow our work. We are completing work that streamlines the 
decision process and meets our environmental responsibility.
    As part of this effort, we expect to release our new 
National Environmental Policy Act (NEPA) rules later this 
summer. We are taking steps to be more cost effective in fire 
response and pursuing long-term actions to reduce costs. We are 
improving our financial accountability.
    We have geared up to fully employ new Farm Bill 
authorities. They put more science-based tools in our toolbox 
to do more work.
    Expansion of the good-neighbor authority and provisions for 
wood innovation will rapidly be put to good use.
    The Forest Service is well positioned to build on this 
momentum. The President's $5.7 billion budget places emphasis 
on our critical work. It focuses on reducing wildland fire 
risk, improving forest and grassland conditions, and 
contributing to rural economies. It does reflect tough choices 
and tradeoffs. It helps us build on a shared stewardship 
approach.
    In fiscal year 2020, we are also pleased the first funding 
fix will take effect. The damaging practice of fire transfer 
will likely become part of the past. We will no longer 
sacrifice critical work to pay for firefighting.
    The $1.3 billion request for fire preparedness helps us to 
be ready for another tough fire year.
    Lastly, our mission success depends on a highly skilled, 
motivated workforce. We will continue our work to end sexual 
harassment and retaliation.
    Last year, we listened to employees. We learned from them, 
and we acted to bring about change. Today employees are better 
equipped with new tools, stricter policies, a new code of 
conduct, and supervisory support.
    This summer, we will ban alcohol at all shared housing. 
These actions are necessary to achieve sustained cultural 
change. It will not happen as quickly as we would like, but I 
am determined to lead a permanent change in the Forest Service.
    In turn, we will make good on the investments of this 
Congress and provide the services and the sound stewardship 
this Nation deserves.
    Thank you. I am looking forward to our Q&A.

    [The statement follows:]
        Prepared Statement of Statement of Victoria Christiansen
    Chairman Murkowski, Ranking Member Udall, and Members of the 
subcommittee, thank you for inviting me here today to testify on the 
President's fiscal year 2020 budget request for the Forest Service.
    The fiscal year 2020 President's budget for the USDA Forest Service 
totals nearly $5.7 billion. Of that, $559 million is mandatory funding. 
It is a good investment for the American people and will enable us to 
make progress in addressing the critical condition of America's 
forests. Up to 80 million acres of the National Forest System, about 4 
in every 10 acres, are at moderate to high risk from catastrophic fire. 
Other threats include regional drought, invasive species, and major 
outbreaks of insects and disease. Stakeholders of the USDA Forest 
Service broadly agree on the need for active measures to address the 
threats across many of the landscapes we manage, and Congress has done 
their part to help. I appreciate the support and innovative authorities 
that Congress provided in the 2014 Farm Bill, the 2018 Omnibus, and the 
2018 Farm Bill to help us do more to improve the conditions of our 
forests and grasslands and protect communities. This is an indication 
of Congress' expectations and trust in us, and I look forward to 
continuing to work with you to meet those expectations. There is much 
more work to be done to improve landscape resiliency for present and 
future generations, but we are committed to doing the right work in the 
right places at the right scale.
    In 2018, Secretary Perdue announced a new strategy entitled, 
``Toward Shared Stewardship Across Landscapes: An Outcome-Based 
Investment Strategy'' that calls for stronger collaborative 
decisionmaking with States and partners and employs new technology that 
can be shared. To do this, we will continue to reform our processes to 
better serve those connected to the land, improve infrastructure, and 
collaborate with our partners to set mutual goals and priorities to get 
more work done across landscapes. Use of tools like the Good Neighbor 
Authority, with more than 200 agreements in 37 States, 20-year 
stewardship contracts with cancellation ceiling relief, and other 
internal process improvements, including environmental analysis 
decisionmaking, is reducing the time and cost needed to produce high 
quality and science-based decisions that are accomplished effectively 
and efficiently. The agency continues our work on other fiscal reforms, 
and identifying new reforms, to ensure accountability and credibility 
for every dollar we receive. In this Budget the USDA Forest Service 
proposes a new budget structure that will eliminate cost pools, improve 
transparency and accountability, and will enable efficient delivery of 
integrated programs at an ecosystem/landscape scale level.
    Fortunately, implementation of the fiscal component of the fire 
funding fix begins in fiscal year 2020. The USDA Forest Service is 
requesting access to $1.95 billion of the overall resources authorized 
in the recently enacted ``wildfire cap adjustment.'' This, in addition 
to the Suppression funding requested in the President's budget, should 
dramatically reduce the need for transferring funds from our other 
mission programs to cover firefighting costs. Access to the wildfire 
cap adjustment has stabilized our budgeting environment and the 
President's Budget is proposing funding increases to line items to 
improve the condition of our forests.
    We recognize that the successful delivery of services and work 
starts with a highly skilled, motivated workforce. Forest Service 
employees remain our largest and most important investment. They are 
essential to confronting the arduous challenges facing America's 
forests and grasslands and are integral to the services and experiences 
we provide to citizens and local communities. We are aware that we must 
do more to stop harassment, bullying and retaliation. We have taken, 
and continue to take, significant steps to improve policies, 
accountability, reporting systems, and training around the workplace 
environment. I want to reaffirm my commitment to continue the hard work 
that will improve our agency's culture; to continue transparency before 
this subcommittee, Congress and the public we serve; and to achieve a 
workplace where all employees are treated with respect and dignity, so 
that they do not fear for their safety--physically or emotionally.
                      the president's 2020 budget
    The fiscal year 2020 request focuses on three primary areas: 
reducing wildland fire risk, improving forest and grassland conditions 
through shared stewardship, and contributing to rural economic 
prosperity. To address these focus areas, the Budget makes significant 
investments in the following program areas:

  --$1.34 billion is proposed for Fire Preparedness, which enables the 
        Forest Service to maintain its existing firefighting capability 
        and funds all base 8 salary costs for firefighters.
  --$1.011 billion is proposed for Suppression, the 2015 10-year 
        average, base funding set by the 2018 Omnibus which will be 
        frozen through fiscal year 2027.
    --The budget seeks $1.95 billion of the authorized wildfire funding 
            fix cap adjustment for wildfire suppression activities.
    --This, in addition to the $1.011 billion for Suppression, would 
            provide about $3 billion for wildland fire suppression 
            activities in fiscal year 2020.
  --$450 million is proposed for Hazardous Fuels, which supports the 
        agency's emphasis on improving the condition of the Nation's 
        forests and grasslands while enhancing their resilience to the 
        negative effects of wildland fire.
  --$375 million is proposed for Forest Products, which will support 
        the sale of 3.7 billion board feet of timber. The Forest 
        Service is working to improve the speed and agility in the 
        planning and execution of land management actions, including 
        timber sales.
  --$77 million is proposed for the Forest Inventory and Analysis (FIA) 
        Program, which generates data on past, current, and projected 
        tree inventories for all 50 States. The FIA program enables the 
        natural resource community to understand the magnitude of 
        changes in forest conditions and trends, and to make 
        projections of future conditions--information which is vital to 
        the long-term health of forests and the sustained availability 
        of multiple uses from forests.
                         legislative proposals
    The fiscal year 2020 President's budget proposes several key 
legislative changes to improve our effectiveness in delivering programs 
and services:

  --Federal Lands Recreation Enhancement Act Reauthorization (FLREA): 
        The proposal is to reauthorize the Federal Lands Recreation 
        Enhancement Act through September 30, 2022. The revenues 
        collected from these recreation fees are an important source of 
        funding to enhance the visitor experience through maintenance, 
        operations, and improvements to recreation facilities on public 
        lands. This is an interagency proposal with the Department of 
        the Interior. The Triennial Report to Congress on 
        Implementation of FLREA, published in May 2012, contained 
        several ``Considerations for the Future of the Program,'' which 
        set the foundation for the interagency proposal.
  --Grazing Permits: The proposal would amend the Federal Land Policy 
        and Management Act (FLPMA) to correct the 2015 National Defense 
        Authorization Act amendment to FLPMA Section 402. For this 
        section only, all National Forest System lands would be 
        included so that grazing permits on national forests in eastern 
        States and National Grasslands are treated equally in National 
        Environmental Policy Act analysis of grazing permits.
  --Wild and Scenic Rivers: The Wild and Scenic Rivers Act requires 
        that comprehensive river management plans be prepared within 3 
        years following a Wild and Scenic River designation. This 
        proposal would change the Wild and Scenic Rivers Act to state 
        that the Secretary of Agriculture shall not be in violation of 
        Section 3(d)(1) of the Wild and Scenic Rivers Act solely 
        because more than 3 years have passed since a river was 
        designated ``wild and scenic'' and a comprehensive river 
        management plan has not yet been completed. If more than 3 
        years have passed since designation without the completion of a 
        comprehensive river management plan, the proposal would require 
        that a plan must be completed or appropriately updated no later 
        than during the next forest plan revision process.
  --Forest Botanical Products: This proposal would reauthorize the 
        Forest Botanical Products Program for charging and retaining 
        fees for the harvest of forest botanical products. The 
        objective of the program is to provide for the sale and harvest 
        of forest botanical products in a sustainable manner that 
        contributes to meeting the Nation's demand for these goods and 
        services. The proposal would extend the agency's existing 
        authority for 1 year, to September 30, 2020. The Consolidated 
        Appropriations Act of 2014 extended this authority beyond a 
        pilot program through September 30, 2019.
  --Communication Site Program--Administrative Fee Retention: This 
        proposal would authorize appropriation of a new programmatic 
        administrative fee for communications use authorizations to 
        cover the costs of administering the Forest Service's 
        communications site program on National Forest System (NFS) 
        lands. This new fee, which was authorized by the Agriculture 
        Improvement Act of 2018, subject to appropriation, would allow 
        the agency to better manage the growing use of Forest Service 
        lands for communications facilities to better serve its 
        customers, emergency services, and visitors to NFS lands by 
        providing expanded telecommunications capabilities, including 
        cellular coverage and broadband access, to rural communities.
  --Mineral Receipts; Public Land Infrastructure Fund: This proposal 
        allows the Forest Service to be eligible to use up to 10 
        percent annually from the Administration's Public Lands 
        Infrastructure Fund. This proposed fund was included in the 
        Department of the Interior's fiscal year 2020 budget request to 
        address deferred maintenance needs. The Public Lands 
        Infrastructure Fund would be supported by the deposit of 50 
        percent of all Federal energy development revenue that would 
        otherwise be credited or deposited as miscellaneous receipts to 
        the Treasury over the 2020-2024 period, subject to an annual 
        limit of $1.3 billion.
  --Cost recovery Minerals: This proposal would authorize the Forest 
        Service to retain and spend new cost recovery fees for 
        locatable mineral plans of operations and surface use plans of 
        operations for oil and gas leases, and other written Forest 
        Service authorizations relating to the disposal of locatable 
        and leasable (but not saleable) minerals on all NFS lands. The 
        agency currently has the authority to collect such fees but 
        does not because we are unable to retain the fees. The 
        provision caps the amount that may be retained at $60 million 
        annually. This proposal would better align the Forest Service 
        with the Department of the Interior.
  --Cost Recovery for Land Uses/Infrastructure Special Use Processing: 
        This proposal would change the agency's cost recovery authority 
        to allow the collection of funds associated with the full cost 
        of processing a land use-related special use proposal. The 
        amendment would authorize the agency to collect fees at the 
        very beginning of the screening process rather than waiting 
        until an application has been fully screened and accepted for 
        consideration. Under the current cost recovery law, only when a 
        proposal becomes an application is the agency able to recover 
        costs to process the application.

    Coupled with the expanded authorities Congress has provided and our 
internal reforms, these legislative proposals will translate to better 
results, and increased production and work in our Nation's forests and 
grasslands.
    In closing, the Forest Service's fiscal year 2020 budget request 
prioritizes investments to reduce wildland fire risk, improve forest 
and grassland conditions through shared stewardship with our partners, 
and contribute to rural economic prosperity. It requires tough choices 
within our existing program of work and will compel us to make delivery 
of forest and rangeland products and services. We will also need to 
ensure better cost containment and accounting for our spending. The 
Forest Service will continue to meet this challenge. I look forward to 
working with this subcommittee to fulfill the President's goals and our 
key responsibilities for the long-term benefit of the Nation's forests 
and grasslands and for all Americans. I will be glad to answer your 
questions.

    Senator Murkowski. Thank you, Chief. I appreciate that.
    Let us move into questions here. I wanted to start with 
something that Senator Udall has raised, and this is the 
proposal to cut both the State fire assistance and the 
volunteer fire assistance.

                      FISCAL YEAR 2020 BUDGET CUTS

    Typically, you have your State and your local agencies that 
are literally the first responders. As I understand it, this 
was true 78 percent of the time in 2018, and this was whether 
the fire was on State or Federal lands. But it is the State and 
local agencies that are there first.
    These two programs trained over 119,000 firefighters last 
year alone and provided over $17 million in funding for local 
firefighting departments to purchase new equipment or upgrade 
existing. Both of these programs significantly reduce the 
overall Federal fire suppression costs by letting the State and 
local departments get in there and move first, attacking these 
wildfires when they are small.
    I am with Senator Udall on this. I just do not understand 
why you would undercut this funding at the State and local 
levels.
    It seems to me that this gives you extraordinary leverage 
with just a little bit of funding. What is the rationale behind 
this cut?
    Ms. Christiansen. Thanks for being so aware of the leverage 
of these--the volunteer fire assistance and State fire 
assistance.
    I can tell you as a former State forester in two different 
States, it is a critical partnership. You said it. It is a 
system in America that we have in response to wildland fire. No 
one organization can do it alone, and we leverage on our 
strengths. And, of course, the local firefighters are there 
immediately in community.
    So there is an investment. We still have a request. 
Unfortunately, it is reduced because we had to make these very 
tough choices and tradeoffs about the conditions of America's 
forests and meet the administration's instructions to reduce 
our fiscal year 2019 budget request by 5 percent. So, in doing 
that, we had to get really specific and focused. It was about 
improving the conditions of the forests so we can reduce long 
term the risk from fire and to sustain rural economies. They 
were really tough choices. We would be happy to work with you 
on this.
    Senator Murkowski. Chief, I recognize that before you were 
Chief of the Forest Service, you were a firefighter on the 
ground, and I think you know full well that these significant 
reductions in these accounts send the message to those first 
responders at the State and local level that, ``We are going to 
handle it on the Federal side, you guys.'' I do not think that 
that is the message that we want to send. I do not think that 
that is the message that these incredible men and women who 
really are on the front lines deserve to hear. At a time when 
we are conscious of the budget and need to be looking to find 
reductions, we should not undercut the assistance that we 
receive from those who are responding locally, but instead 
recognize what that contribution means to that local economy.
    You have said that the goal here of the administration is 
two-pronged. Let us focus on the prevention side, but let us 
also address the local economies.
    I can tell you firsthand that in some of our more remote 
communities, it is our fire crews that are out there on the 
front lines. This is their whole economy during the summer; 
this is the income that these men and women bring back to the 
village after the fire season is over.
    I appreciate you saying that you are going to work with us 
on this. I want to believe that your heart is not really into 
defending this cut. Please know that Senator Udall and I feel 
pretty strongly that this is not a place to be making a 
reduction like this.
    Let me turn to you, Senator Udall.
    Senator Udall. Thank you. You said it so well. I could not 
agree more.
    I think that, Chief, this is a strong message to you of 
where we come out on this.
    Chief, we recently learned that the secure rural school 
payments for 2018, which Senator Murkowski and I worked to 
include with the fire cap authorization, were being hit with a 
sequester. I asked my staff to look into it, and the Budget 
Office told us you are correcting that decision and the 
counties will receive their full payments.
    Can you tell me when you expect those corrected payments to 
be issued?

                    PAYMENTS TO SECURE RURAL SCHOOLS

    Ms. Christiansen. Yes. Thank you, Senator.
    You are correct. There were some different interpretations 
on whether sequestration should be applied. That has been 
corrected, and we distributed the funds to the States earlier 
this week. And they should be hitting the actual States by the 
end of this week. So it has been executed.
    Senator Udall. Yes. Check is in the mail. Good.
    Senator Murkowski. Good.
    Senator Udall. Okay.
    Ms. Christiansen. ``In the ether,'' I think it is called 
now.
    Senator Udall. Yes. Okay.
    And I know you have been through this a lot, but the 
Payments in Lieu of Taxes (PILT) and Secure Rural Schools (SRS) 
monies are very, very important for education, for law 
enforcement, for those kinds of needs, and so we just need to 
make sure they know that they are going to be getting them.
    As I stated in my remarks, I am very focused on ensuring 
that the fire cap last beyond its current 2-year authorization 
for fiscal year 2020 and fiscal year 2021, but to do that, we 
need the Forest Service to be extra judicious in spending fire 
dollars. We need your help to show that this funding is spent 
well so that we can retain the authority.
    Chief, will you commit to us that you will keep a watchful 
eye on fire spending and will give your budget director and 
fire director the tools they need to track and manage these 
expenditures so that every dollar is a dollar well spent?

                            FIRE CAP FUNDING

    Ms. Christiansen. Absolutely, Senator. We have a wildland 
fire system improvement plan that I get briefed on regularly. 
We know that Congress has put faith in us as a Forest Service 
that we will be a good investment, both how we get after 
improving the conditions and doing the prevention on the 
ground, but that we do not see this new account as a blank 
check. So we have several things in play on accountability, 
good decisions, and really ensuring that our contracts are 
right-sized. We do not want to not be ready for fire season, 
but that we have the right resources, right place, and we are 
ready.
    And I would be more than happy to come up and brief you 
more on what we are doing on that front.
    Senator Udall. Thank you. Thank you very much.
    How does the President's budget enable the Forest Service 
to adequately address the pace and scale necessary to restore 
America's forests and begin reducing the dominating focus of 
the service on fire suppression?

                      RESTORING AMERICA'S FORESTS

    Ms. Christiansen. Thank you. You have asked the heart of 
the question that we are really working hard on.
    Our forests across the Nation are in peril. We all know 
that, and we need to really work on treating the right acres 
that are going to do the most to reduce risk. So it is not 
about just treating the most acres necessarily; it is treating 
the right acres. That is really the call to action in this 
shared stewardship framework.
    Alaska's needs are going to be slightly different than New 
Mexico's needs, as an example, and we want to be in 
conversation, convening the partners at the State level to talk 
about that. So that is number one. It is our approach, and it 
is not from a Federal dominance. It is that we are all in this 
together. So we want to look together at the landscape.
    Additionally, as we just talked about, it is about putting 
our focus in improving the conditions and, quite frankly, the 
resiliency of these forests because without these forests, all 
those other benefits that so many different people care about--
recreation, water, hunting and fishing, subsistence, and 
everything else are going to be compromised significantly. So 
we are really laser-focused about reducing the risk on the 
landscape, but this takes all of us.
    We know we cannot just keep spending all our money on the 
increasing complexity of fire. It is more complex, but we need 
to demonstrate that we are making good decisions and we are in 
partnership with our local communities on how we make those 
decisions on wildland fire.
    So we are working on several fronts, Senator, to find the 
right balance to really make a difference on the landscape.
    Senator Udall. Thank you.
    Thank you, Madam Chair.
    Senator Murkowski. Senator Merkley.
    Senator Merkley. Thank you so much for your taking on many 
challenges in managing our National Forests, and I may be 
weighing in on very similar topics to my colleagues. Fire is 
just an enormous threat to the Pacific Northwest.
    We have had two summers, 2017 and 2018, with a lot of 
fires, a much longer fire season, more fires burned, and a lot 
more smoke damage. Of course, at the same time that we had risk 
to towns in Oregon, we had devastating fires in California, 
including the Paradise fire.
    Senator Widen and I were very pleased to see the fix to 
fire borrowing. Do you support extending that fix beyond a 2-
year period?

                         EXTENDING FIRE FIX CAP

    Ms. Christiansen. Absolutely. We are going to do everything 
we can to show that we are a good investment and that we can 
make a difference on the ground because you all did not do it 
just out of the kindness of your heart. You expect a 
difference.
    Senator Merkley. Well, it makes a big difference if the 
Forest Service is not continuously put into a situation of 
borrowing against all of its other programs in order to fight 
fires, a situation we have seen so often, and many of us have 
had to work together to try to refund the deficit run-up with 
the Forest Service in that fashion. But interrupting those 
programs makes no sense.
    This also frees up, in the discretionary budget, hundreds 
of millions of dollars. Do you think we should put those 
hundreds of millions into preventing fires in the first place, 
through thinning and fuels treatments in our forests?

                       HAZARDOUS FUELS TREATMENT

    Ms. Christiansen. Senator, we clearly need to focus and get 
more work done on the ground. I do not think there is any 
denying that.
    In this budget proposal, we had to make some very difficult 
choices and tradeoffs, following the administration's 
instructions of reducing by 5 percent or 2020 proposal from the 
2019 proposal, and where we did put the focus was on improving 
the conditions of the forests to reduce the wildland fire risk 
and to sustaining rural economies. So that is how you will see 
this budget request was shaped up.
    We will always be able to use more resources to get good 
work done on the ground.
    Senator Merkley. So I did not really see that in your 
budget. I saw a slight increase in the vegetation management 
account, the modest increase of $15 million, and yet there is 
hundreds of millions of dollars available with this change and 
the cap.
    I also saw a devastating of the Collaborative Forest 
Landscape Restoration Program. We have three collaboratives in 
Oregon. The authorizing committees have doubled the amount of 
money that can be appropriated. So we added $40 million to $40 
million to $80 million, and you cut $40 million out of $40 
million to zero. And these collaboratives have brought the two 
sides of the conversation, the timber community, the 
environmental community, and all the local stakeholders into 
the same room, work out prescriptions, stayed out of the 
courts, and done a tremendous amount of thinning and fuels 
reduction that makes the forest healthier.
    So since this is one of the really big wins in ending the 
timber wars and improving the health of our forests, why is the 
account zeroed out?

           COLLABORATIVE FOREST LANDSCAPE RESTORATION PROGRAM

    Ms. Christiansen. Senator, you are absolutely right about 
the collaborative efforts across the Nation, particularly in 
the Northwest but many other places, and the Collaborative 
Forest Landscape Restoration Program (CFLRP). It has been a 
great success. It brings common shared values together and 
support for holistic treatments on the ground.
    With that said, because there is not a specific request for 
CFLRP does not mean we will not continue to fund those efforts. 
It is just in our regular line items.
    You are not going to see a lot of plus-ups in the request 
because, again, we needed to reduce by 5 percent of our 2019 
request. So in making those tough choices, we focused keeping 
stable our forest vegetation and watershed management and 
hazardous fuels lines.
    Senator Merkley. I am almost out of time. So I will jump to 
one other piece of this, which then--if in fact we do not have 
a 5 percent cut because Congress bipartisan way weighs in and 
says reducing the fire risk in our forest is extremely 
important, do you think the collaboratives are a very 
important, valuable contribution to the work we are doing?
    Ms. Christiansen. Absolutely. We could not do the amount of 
work we are doing without them.
    Senator Merkley. And if we can find the money, that we 
should do a lot more work on the front end, rather than just 
fighting the fires on the back end?
    Ms. Christiansen. We will always work to do the mitigation, 
prevention, and with the best investment intentions possible.
    Senator Merkley. To give you an example, in Oregon, we have 
2.2 million acres that have been cleared environmentally. A lot 
of people think, oh, it is the environmental rules. No, we have 
2.2 million acres ready for fuels treatment. It is all an issue 
of whether or not we have the programs to fund that work, and 
that means good jobs in the woods, jobs in the logging trucks, 
jobs in the mill, greater fire resistant, a better forest for 
ecosystem, and a better forest for timber production. It is a 
win all the way around.
    When we have something that is a win on so many fronts, I 
want to see us do more of it, not less.
    Ms. Christiansen. I agree. Thank you, Senator.
    Senator Murkowski. Thank you, Senator.
    Spruce bark beetle is back in Alaska, and they are on 
steroids this time. When they were in the State about 15 years 
ago they really decimated so many parts of the Kenai Peninsula, 
and now they have moved northward into South Central.
    About a million acres have been infested in the Mat-Su 
Valley and down on the Kenai Peninsula, and we have had two 
very popular campgrounds that have been completely closed 
before they were even opened because of what we are seeing with 
the beetle kill.
    I understand that the next round of monitoring flyovers in 
July are expected to increase what we have assessed that has 
been damaged and destroyed already.
    As we talk about ways that we are going to be preventing 
fire, one of the problems with this beetle kill is that it 
destroys the health of the tree and makes them more vulnerable 
to these fires when they come through. Yet, the budget proposes 
a 25 percent cut to the Forest Service Western Bark Beetle 
Initiative.
    So I am asking the same question that I did before. Is this 
a smart reductions? We do not have any projects in Alaska under 
the 2014 Farm Bill insect and disease area authority. I do not 
understand why.
    I do not understand cuts to these types of programs. This 
is not just in Alaska--we will hear it in Montana and Colorado 
and other parts around the West where the spruce bark beetle or 
different iterations of these insects are causing extensive 
damage.
    Can you speak to me about what it is that we are doing 
within Forest Service to ensure that we have adequate resources 
there to provide for more robust tree removal, fire break, fuel 
breaks, and also including the community wildfire protection 
plans?

                           SPRUCE BARK BEETLE

    Ms. Christiansen. Thank you, Senator.
    First, I will definitely reinforce how you describe the 
situation with the spruce beetle in the Mat-Su and the Kenai. 
It has accelerated extensively over the last 3 years.
    I am pleased to say it is primarily on private lands, and I 
will get back to the funding here in a minute.
    But our mission is to help sustain the Nation's forests and 
grasslands, and we do that with and through other folks.
    Senator Murkowski. Those private lands are right next to 
your lands.
    Ms. Christiansen. They are right next to our lands, but 
we----
    Senator Murkowski. The bugs do not care.
    Ms. Christiansen. And just like fire, they do not respect 
boundaries.
    So what we were able to do immediately was to use $2 
million from our State and Private Forestry funds in addition 
to the western bark beetle funds, was to put these funds into 
Alaska in an all-out effort, collaborative way, that we are 
working on together.
    We signed a new good-neighbor agreement with the Chugach so 
we can do some cross-boundary work, and the Alaska Department 
of Natural Resources, Parks, and Forestry and we are all being 
proactive instead of waiting for the disastrous fire and the 
damaging windfall to people and structures.
    We are investing in the critical work that needs to be done 
to do fuel breaks and to take out the hazardous trees.
    On the research and development side, this is the other 
piece that the Forest Service helps provide. There is a couple 
trials of treatments. It is systemic insecticides and an anti-
aggregate pheromones. Now, I do not know a lot about those yet, 
but we are doing some trials up there to see if there are some 
ways we can naturally help get it back.
    Senator Murkowski. Are those sprayed, or how do you apply 
that?
    Ms. Christiansen. I can get back to you on that. I do not 
have full understanding of them. The pheromones are not. The 
insecticides, I am not sure about.
    Senator Murkowski. Yes. If you can have somebody let us 
know what it is we are talking about.
    Ms. Christiansen. We will get you more information.

    [The information follows:]

    More info on systemic insecticide and anti-aggregate pheromone (for 
treating AK spruce bark beetle). Answer below:

  --Both techniques are still experimental.
  --Systemic insecticides are chemicals injected into the trunks of 
        healthy spruce trees to protect them against attacks by spruce 
        beetles. These insecticides are being tested to see how 
        effective they are in protecting individual trees in high value 
        situations, such as campgrounds or suburban landscapes. These 
        would not be used in large-scale forest situations.
  --Anti-aggregation pheromones can treat larger areas. They are 
        beetle-produced chemicals that repel beetles from attacking 
        trees, and are being tested for effectiveness in protecting 
        high value trees or possibly forest landscapes. This is still 
        in the early stages of experimentation and FS R&D is working 
        with the State assess effectiveness.

    Ms. Christiansen [continuing]. But, anyway, our researchers 
are up there because we are looking about how to keep the 
natural beetles, of course, but how to keep them in balance.

                        FOREST HEALTH MANAGEMENT

    In respect to the funding, we have two items with forest 
health. It is forest health on the national, forest system, and 
forest health cooperative, meaning for all lands.
    We treat them as a bundle because fires know no boundaries, 
but the cooperative forest health is to invest and leverage 
with the State fund so that we can, again, address a landscape-
scale problem.
    Unfortunately, I have said it before, we had to make some 
tough choices and tradeoffs. So the cooperative forest health 
was reduced, not because we do not recognize there is a 
problem, but we had to make some tough choices. We will always 
be as effective as we can with our investments leveraging 
really good partnerships. I think there are some good ones in 
Alaska.
    Senator Murkowski. Well, you know that for us, it is not a 
situation of if we want to partner. We know we have to, but 
again, as I think of those ways that we can help the Federal 
Government save money, the more we can put into the up-front 
for the prevention the better it will be in the end. And I 
think every one of my colleagues on this subcommittee would 
agree that those are monies that are well spent.
    Let me go to Senator Daines.
    Senator Daines. Thank you, Chair Murkowski and Ranking 
Member Udall.
    Chief Christiansen, welcome.
    Ms. Christiansen. Hi.

                    LAND AND WATER CONSERVATION FUND

    Senator Daines. Good to see you.
    I will tell you I do appreciate your 2020 budget's focus on 
hazardous fuels reduction. It is a big deal in Montana, 
reducing wildfire risk. I am disappointed that the 
administration has zeroed out the very important Land and Water 
Conservation Fund. I mean, this is following a 92-to-8 vote in 
the Senate to permanently authorize LWCF. I frankly found that 
like a slap in the face when we saw that come from the 
administration. Very disappointing.
    This is a critical tool to help facilitate and increase 
access to public lands in places like Montana for outdoor 
recreation, protecting our State's iconic wildlife habitat, our 
water quality, providing a steady supply of timber to many of 
our mills who are struggling to survive.
    In fact, one of the great stats in LWCF, it has funded over 
70 percent of the fishing accesses across Montana, have come 
through LWCF. Many of Montana's LWCF projects are actually 
Forest Service projects. Congress made a historic step 
protecting this program by enacting permanent reauthorization 
in a bipartisan public lands package.
    In fact, there are a few things that unite Congress 
anymore. This public lands package was one of them, and LWCF 
was an anchor part of that important bill.
    I think it is time that we now back up that vote that we 
saw earlier this year with full mandatory funding.
    The House appropriators are taking a strong step forward by 
funding LWCF more than it has been funded in 15 years. I am 
glad to see that. I hope this subcommittee will follow suit, 
and as we do that, we will need the Forest Service to ensure 
that projects are adequately assessed and ranked to ensure the 
funding can be implemented.
    And I know for certain, though the administration zeroed it 
out, I guarantee you this subcommittee will fund LWCF in a much 
more robust fashion. I would like to see permanent mandatory 
ultimately, but as we continue that fight, in the meantime, we 
need to keep bumping the funding up through this subcommittee.
    So my question, Chief, is, will you commit to us today to 
work with us to ensure that our increased funding can be 
implemented effectively and quickly?
    Ms. Christiansen. Senator, yes. And let me just say that we 
too understand the extreme importance of access to our public 
lands, and I want to acknowledge the work that Congress did on 
the public lands package. It is really significant.
    We submitted the list of projects, and there is a wealth of 
projects earlier this month to this subcommittee. So we stand 
ready to implement what Congress would fund.
    Senator Daines. Thank you. I look forward to working with 
you on that, Chief.

                          MULTI-USE RECREATION

    Shifting gears for a moment, Chief, in Montana, we are 
seeing a decrease in multiple-use recreation in our National 
Forests. As a U.S. Senator who spends probably more time in 
wilderness areas than probably any Senator here, I spent a lot 
of time above 9,000 feet, at times above 10,000 feet, every 
summer than most Members of Congress, I certainly appreciate 
the value of balanced use of our public lands, and too often, 
though, I hear across our State about diminished access to our 
treasured public lands because not everyone can climb to 10,000 
feet with a 40- to 50-pound backpack on their back.
    I am thankful I still can. Someday there will be a point 
where I cannot. Specifically, forest plans in the Bitterroot 
and elsewhere are locking out historic uses, such as mountain 
biking, such as snow mobiling in areas that are not designated 
as wilderness. These are trails that some families have used 
literally for generations, and now they are banned from that 
area.
    I recently wrote to you on March 7 regarding a very 
troubling statement in a planning document stating that 
managing for mountain biking, quote, was extremely challenging, 
end quote, and suggesting it should be avoided. However, I am 
happy to receive your agency's response just last night and 
that you are meeting with cycling groups to explore more 
opportunities in the forests prior to finalization of the 
Travel and Management Plan.
    I can tell you that is welcome news for Montana's 
recreation community. We are trying to strike a balance there, 
truly, because we have competing interests and so forth across 
our community.
    My question is, Can I get your commitment to work with 
these recreation groups and to support some of the longstanding 
and existing access opportunities as you update this as well as 
other forest plans?
    Ms. Christiansen. Absolutely, Senator.
    As I said, we recognize the importance of access, and it is 
balancing our multiple-use mandates. It is about sitting down 
and working this out together, and we will always commit to 
that. And under my watch, it will be a priority.
    Senator Daines. Thank you, Chief.

                             HASSELL REPORT

    Senator Murkowski. Senator Udall.
    Senator Udall. Thank you, Madam Chair.
    Chief Christiansen, I know that you have experience in the 
Southwest as Arizona State forester and that you have visited 
New Mexico, but I want you to know that you--but I want to know 
whether you are familiar with the Hassell Report, which sets 
out ways for the Forest Service to recognize the unique 
cultural heritage in New Mexico and how to make the resources 
of National Forests and the work they generate contribute more 
effectively in local communities--are you familiar with that 
report?
    Ms. Christiansen. I am familiar with that report. That 
really calls out the cycle and mistrust that we are working to 
be very aware, sensitively aware of the needs of the natives of 
New Mexico.
    Senator Udall. I think your answer is very good. It is a 
50-year-old document, and while some of the statements within 
it are outdated and others are inaccurate, I believe it 
continues to give valuable insights into how we view our land 
and how it should be managed.
    I think it should be required reading for all Forest 
Service employees, not just those working in New Mexico, 
because it sets out a framework for collaboration and building 
trust between a community and the Forest Service.
    So I want you to know that Cal Joyner, our Regional 
Forester, is putting these recommendations to work, and people 
that he is working with are very happy. In the 6 years Cal has 
been our Regional Forester, he has made sure that the Forest 
Service works hand in hand with land grants and acequias that 
are unique to New Mexico. On everything from forest plan 
revisions to guidance on maintenance and repairs, Cal and his 
staff have conducted extensive outreach to make sure our local 
traditional communities have the opportunity for meaningful 
input. It is not an easy balancing act, but I really appreciate 
the work that you and he are doing on that.

                     2018 FARM BILL--NEW AUTHORITY

    I wanted to get a question in here on the new authority you 
received under the Farm Bill, the 2018 Farm Bill that we just 
passed. It allowed the Forest Service to enter into 638 
contracts with Tribes for forestry work on adjacent public 
lands. Do you have a timeline for when the agency will start 
contracting with Tribes using this new 638 authority? Do you 
support this new authority, and are you going to be using it 
soon?
    Ms. Christiansen. Thank you, Senator.
    Yes, we support the new authority. The Bureau of Land 
Management (BLM) has had it for many years, and that we can use 
this authority.
    We are working. I have a Farm Bill task group focused on 
implementation, and we will have a template by early summer, 
and then, of course, it is building the relationships. We have 
the relationships with the Pueblos and Tribes in New Mexico, 
but we need to have a willing partner.
    So we are making sure we stand ready to do those 638 or 
self-determination contracts as quickly as possible.
    Senator Udall. Great. Thank you.
    I noticed today you are actually doing a listening session 
between 1:00 and 2:30 eastern time on this specific subject.
    Ms. Christiansen. You bet, we are.
    Senator Udall. So you are out there working on it.

                           WILDLIFE CORRIDORS

    In 2018--this is the questions on wildlife corridors. In 
2018, Secretary Zinke issued a secretarial order relating to 
improving habitat for big game species in their winter range 
and migration corridors, but the goals in implementation of 
that order does not apply to the Forest Service.
    I believe the Forest Service plays a crucial role in 
maintaining the natural habitats and connectivity corridors for 
all native wildlife, including big game. Would you agree with 
that? What more could the Forest Service do in conjunction with 
other land managers to maintain wildlife corridors?
    Ms. Christiansen. Yes. Thank you. We are certainly part of 
the landscape and are well aware and working at the local and 
regional level on that secretarial order together. It does not 
happen just on Interior lands.
    So we have rolled up our sleeves, and we are doing shared 
planning together with our partners.
    Senator Udall. Great. Thank you.
    I think you are probably well aware of the U.N. report that 
came out in terms of the endangered species. So I think it is 
important that all of our public land managers and the Forest 
Service be aware of that and try to work on this corridors 
issue.
    Thank you very much, Madam Chair.

                         TIMBER IN THE TONGASS

    Senator Murkowski. Thank you, Senator.
    Chief, let me follow up on a conversation that we had about 
timber in the Tongass last month when you testified before the 
Energy Committee, talking about the 10-year history of timber 
volume offered and sold and how that relates to the volume 
target set for each year.
    Can you explain, as you review this history every year, the 
volume offered? And outside of 2017, how much of that volume is 
a reoffer of sales from prior years that did not sell? Do you 
have that information?
    Ms. Christiansen. Senator, I do not have that specific 
information. I do not want to guess.
    Senator Murkowski. Well, please help me with understanding 
that. I am looking to understand what would have been a reoffer 
from prior years, and then going forward, if those were 
reoffers, why would the Forest Service expect that these 
reoffered sales are going to be of interest to the industry 
now?
    Ms. Christiansen. Yes. No, I understand your question.
    Senator Murkowski. I am trying to understand where we are 
with the volumes.
    Ms. Christiansen. So let me speak in generalities, but I 
want to make sure we confirm specifics.
    We do not just offer and then hope for a different result a 
few months later and offer again. We will look at all of the 
factors of why.
    Senator Murkowski. Why it was not interesting in the first 
place.
    Ms. Christiansen. There are times it might be market 
forces, but there are many other times, at least part of why it 
did not get a purchaser, it did not get a bid would be because 
we required too much or it is how we designed the sale or too 
much roadwork, whatever it might be. So we will take a critical 
review and we have folks that come in and do a review to say 
what is it that this needs to have a viability to be a viable 
sale in the future.
    So we will retool them is usually what we call them based 
on the factors we know of why they did not get a bid.
    Senator Murkowski. Do you take feedback or input from the 
industry as to why----
    Ms. Christiansen. Oh, absolutely.
    Senator Murkowski [continuing]. It was of no interest in 
the first place?
    Ms. Christiansen. Yes.
    Senator Murkowski. Okay. I just want to make sure that I 
have an accurate understanding of your description of what is 
happening on the ground in the Tongass right now.
    The timber sale program within the Tongass includes both 
old growth and young growth, and since the 2016 plan was 
adopted, Forest Service has not even come close to meeting the 
annual volume target. The volume offered is approximately 66 
percent of the target, but the key figure, which is the volume 
sold, is only 31 percent of the target. And these statistics 
just continue to go downhill if you look at just the old growth 
volume sold. That is only 22 percent of the target.
    My assessment is that the Forest Service continues to 
struggle with its effort to identify, design, and sell economic 
timber sales within the Tongass. The new forest plan, the 
conservation overlays between the Tongass 77 and The Nature 
Conservancy conservation priority areas in these plans and the 
loss then of those areas with the Roadless exemption--these 
have all come together to contribute to a shrinking land base 
that makes it difficult to actually practice active forest 
management.
    I think this last planning round has pushed the Forest 
Service over the edge, and even in the best of circumstances, 
implementation is failing to produce sufficient timber in terms 
of volume to sustain the industry and the community.
    Am I giving an accurate description of where we are in the 
Tongass today with these overlays and what that actually takes 
off the table in terms of anything that could be considered an 
economic sale?
    Ms. Christiansen. I would frame it slightly different in 
the short term and in the longer term.
    Senator Murkowski. Okay.
    Ms. Christiansen. In the short term you are absolutely 
right about the challenges. In the short term, we have lands to 
operate on.
    Senator Murkowski. We would agree that that is both a very 
short term.
    Ms. Christiansen. Well, I am talking about the next 15 to 
25 years.
    We have taken on efforts for two large landscape 
assessments so we can have the clearance and be ready to 
provide volume, both old growth and the second growth, in the 
years to come.
    The Prince of Wales landscape assessment was really a 
diverse collaborative, came together to look at the multiple 
values, including old growth timber and the second growth. I 
just spoke with our regional forester here in the last week, 
and they have made the shifts. They have 40 million board feet, 
and it being old growth, predominantly old growth, to put up 
for sale, and about 20 percent of that was helicopter logging.
    They have re-shifted, and they have retooled.
    Senator Murkowski. Right. Because we no longer have the 
helicopter.
    Ms. Christiansen. Have the helicopter contract.
    So now it is to design a sale that can be sold.
    We are working in earnest, and it is a challenge. I would 
be glad to work with you more, even come up to Alaska, so that 
we can roll up our sleeves and really look at this.
    Now, for the longer term, we know that there are changes 
that need to be made to the new plans, some common sense 
changes, the TU-77 streams, and the CAR soils. Now that we have 
the Tongass Roadless under way and the Prince of Wales and 
Central Tongass large landscape, we are working on those 
amendments so that we can--what we have total agreement on, so 
we can have more access to lands in the longer term.
    Those plan amendments should be done in the next 6 to 9 
months.
    Senator Murkowski. Well, we do have a great deal to work 
on. We have had a couple of good sit-downs with the Secretary 
to try to reinforce with him why a total exemption to the 
Roadless is what makes sense in the Tongass and to convey that 
with every overlay, whether it is the implications of the 
Roadless, whether it is the Tongass 77, whether it is the 
conservation priority areas, with each one of these, you take 
off the table an opportunity for a level of access and volume 
that then puts you below these targets that we have set. And 
they might look good on paper, but our ability to actually see 
them translate, it is almost imaginary. And imaginary does not 
help the economy. Imaginary does not keep these small operators 
around.
    The reality is the industry has changed so much. It is hard 
for me to even describe it as an industry anymore. We lost the 
last helicopter operator who basically picked up their assets 
and moved out of State. We as a small operator cannot make it 
work in our Nation's largest National Forest.
    I welcome you up to the State anytime, summer, winter, 
spring, fall, but I do appreciate your effort and your 
willingness along with your acknowledgement of what goes on in 
the forest to try to work with us.
    We are trying to balance some things. You mentioned the 
Prince of Wales, the pilot sale. That collaborative was 
embraced by a lot of people, and I thought it was a good 
outcome. And now, of course, that too is being challenged.
    Ms. Christiansen. Yes.
    Senator Murkowski. No good deed goes unpunished, I guess. 
We are just trying to stay alive down there in Tongass.
    Ms. Christiansen. I understand, and I am really committed 
to keep digging deeper and working on this.
    Senator Murkowski. Okay. Thank you.
    Senator Udall.

                      FOREST RESTORATION PROJECTS

    Senator Udall. Chief, the science continues to show us the 
changes in our forests play a significant role in climate 
change. Forest loss can both be cause and effect of climate 
change. Conversely, restoring forests can sequester carbon and 
stabilize our ecosystems. In fact, our National Forests absorb 
119 million metric tons of greenhouse gas emissions, about the 
amount produced by 25 million cars.
    Chief, what programs in this budget will increase the 
Forest Service's reforestation efforts, and do you have a plan 
to tackle the backlog of forest restoration projects?
    Ms. Christiansen. Thank you for bringing that up, Senator.
    A number that stays up front in my head is the forests in 
the U.S. sequester 12 percent of the carbon emissions in this 
Nation. That is not insignificant, and it shows the value of 
healthy forests.
    You are correct. We have a significant backlog in 
reforestation, and that is largely because of the significant 
wildfire, catastrophic wildfire events.
    We have over 775 million acres that need to be planted, and 
unfortunately, we are not able to keep up. That has been 
extremely exacerbated by the fire borrowing and the lack of 
repayment.
    Where we take those funds when we have to borrow to pay the 
historical fire bill from last year was out of the trust 
accounts. Those are the accounts that go back into the forests 
after they harvest to do the reforestation, and 720 million 
acres were borrowed. And we have yet to be repaid. So it has 
really put us back in being able to get that critical work done 
in the ground.
    In regards to the budget request, you did not see a huge 
increase. Again, it was because of the really difficult 
choices. So there is a need there, and I appreciate your 
concern.
    Senator Udall. And we would like to work with you on that.
    Ms. Christiansen. You bet.
    Senator Udall. I think we are working on legislation on 
that too.
    Ms. Christiansen. Appreciate that.

               COLLABORATIVE FOREST LANDSCAPE RESTORATION

    Senator Udall. On the Collaborative Forest Landscape 
Restoration, another proposed elimination I mentioned in my 
opening statement is dedicated funding for Collaborative Forest 
Landscape Restoration, also known as the CFLR. This program 
funds 23 projects, as you know, across the country, projects in 
many States represented on this subcommittee, including 
California, Mississippi, Missouri, Montana, and Oregon.
    We also have two very important projects in New Mexico, in 
the Southwest Jemez and Zuni Mountains. These projects have 
brought together public and private land managers, 
conservationists, and Pueblos in a way that benefits both 
forest ecosystems and local economies.
    The budget states that the projects are duplicative because 
other Forest Service programs do restoration work on National 
Forest system lands.
    Am I to understand that the Forest Service would walk away 
from these CFLR projects if this budget were adopted?
    Ms. Christiansen. Senator, no, you are not to assume that, 
and you are correct. They are extremely successful in bringing 
a landscape view and landscape results.
    I have been to both of those projects in New Mexico, and it 
is amazing what it does to help bring those communities 
together and to have multiple facets of success.
    So we are shifting in the Forest Service that we did not 
have to incentivize, come together and be collaborative, and 
there might be some additional money. I mean, that is the good 
side of it. That is what we mean by shared stewardship. It is a 
way we have to do business.
    So, in that respect, the last 10 years of having this CFLRP 
stepped up our game, and it is changing the mindset within our 
own organization of what it takes to be successful.
    Senator Murkowski and I have had many conversations about 
the communities of Southeast Alaska. We have to be a part of 
that.
    So that is the good news, and so we will still have an 
expectation that we do work that way. We will just take the 
funding out of our regular line items and make those a 
priority.
    Senator Udall. Thank you.

                    RECREATION--ALLOCATED USE AREAS

    Senator Murkowski. Thank you, Chief.
    There is a lot of talk right now up in the State about 
opportunities for new recreational areas on our Forest Service 
lands. It is springtime, going into this season, and we have 
got a lot of tourists.
    I have been asking for a map that shows the distribution 
and allocated use of the outfitter and guide special use 
permitted areas on the Tongass. We have been asking for about a 
year now. We have not received anything.
    It is my understanding that when an outfitter or guide goes 
through the application process for a permit, they actually sit 
down with the Forest Service folks there in the community, and 
they go over maps that show where the permitted areas are.
    I do not understand why it has been so hard to get a map on 
these recreation-allocated use areas. Can you check into that 
for me?
    Ms. Christiansen. Absolutely. I was not aware myself of 
that request. I will absolutely put my emphasis point on that.
    Senator Murkowski. Okay. Yes. Like I say, they exist when 
they are in the State, but what we would like is to have that 
bigger map.
    Do you know if these types of maps are digitized so that 
information is available and accessible?
    Ms. Christiansen. I am sure they are likely digitized, 
Senator.
    If your question is are they publicly available, that I do 
not know.
    Senator Murkowski. Well, if you can just check on the 
status of the map----
    Ms. Christiansen. Yes, absolutely.
    Senator Murkowski [continuing]. That would be appreciated.

                        CHUGACH--NATIONAL FOREST

    I talked about the Tongass a lot, but I should also address 
our equally significant forest, the Chugach National Forest. It 
is undergoing a long overdue land and resource management plan 
revision. It dates back to 2002.
    Last summer, a DEIS was published. That comment period 
closed in November. I heard from a lot of folks in the State 
that the plan does not provide enough access for all of the 
multiple uses that are advocated by the forest users.
    In particular, many are concerned that the draft plan does 
not provide enough access, whether for timber harvest, mineral, 
or recreational activities.
    What is the status on the plan revision? I know there were 
some concerns raised by some of our native corporations about 
the application of the Roadless rule in context of the plan 
revision. I do not know whether you are anticipating any 
changes in management to the Roadless area in the Chugach, but 
if you can discuss where we are with the plan?
    Ms. Christiansen. I can certainly discuss the process. You 
are right, the draft environmental impact statement draft plan 
is out, and that is why it is out, is to receive public review 
and comment.
    Again, in talking with our regional forester last week, he 
is personally watching over this process and ensuring that the 
comments received are truly integrated in the best way we can 
in the final plan.
    So similar things to what you just summarized that you are 
hearing, we have heard as well.
    Senator Murkowski. Including on the Roadless?
    Ms. Christiansen. Well, yes. We have heard those things, 
but all of that input will be considered, and you will see a 
difference, I am sure, in the final plan.
    Senator Murkowski. Any indication in terms of when we might 
see that?
    Ms. Christiansen. Yes. Factoring in the process, to resolve 
differences, we hope to have the final plan out by early fall 
of this year.

                        FIRE BORROWING REPAYMENT

    Senator Murkowski. Okay. The last question for me relates 
to where we are, given the fact that we have not been able to 
resolve the disaster supplemental. There has been discussion 
about how the Forest Service is made whole for the fire 
borrowing from last year, and we recognize that those funds 
represent critical wildfire spending. They also represent other 
important work that went undone because we did not have access 
to the wildfire cap adjustment.
    I am hopeful that we will have a final deal soon on the 
supplemental that would include the fire borrowing repayment, 
but I want to make sure that I understand what Forest Service 
is planning for the fire season if we do not pass a 
supplemental before the fire season really kicks into high 
gear.
    I did not think, quite honestly, that we would be sitting 
here on May 15 and not have been able to sign off on a disaster 
supplemental. I have been surprised that we are having this 
conversation right now.
    But can you share with me any steps that you are taking to 
prepare for wildfire season, given the uncertainty of the fire 
borrowing repayment? And then share with the subcommittee the 
consequences of those funds not being repaid to date and the 
consequences for the remainder of the fiscal year if we are not 
able to pay them.
    I know that this is all worst-case scenario, but we are 
supposed to plan around here too.
    Ms. Christiansen. Senator, thank you so much for the 
question. This is one of the things that does keep me up at 
night.
    You are right. There are twofold concerns. One is that we 
are unable to get the amount of work done on the ground.
    I have pushed our folks in the field and said you have got 
to plan like you have it, and so they are stepping up and 
putting strike teams out there and all the rest of it to get 
work.
    Senator Murkowski. That is good because we do not want them 
sitting and waiting until we get the okay from Washington, D.C.
    Ms. Christiansen. Well, right, but now I said the money is 
coming, and the money is not there. So they have had to switch 
to appropriations.
    The bottom line is it has had an effect for this year of 
getting less work done, but the other big question that you 
point out is these accounts will not be replenished, which is 
where we normally draw from for the borrowing activity. As you 
know, it is one more year that we have to deal with potential 
fire borrowing.
    The projections for fire for this season are again a wide 
range, but it is significant. It is from $1.6 billion to $2.8 
billion fire year. We have $1.7 billion for suppression.
    So you set it up, absolutely. The likelihood that we will 
be in a transfer situation is significant for this year, and 
without having those accounts replenished that we could draw 
from, again, for the borrowing, we are having to put together 
drastic plan scenarios that would include de-obligating 
contracts and agreements that we already have on the ground 
because there is no other place to pull those funds from.
    Senator Murkowski. Well, I guess that is a clear warning to 
us of the consequences. Hopefully, that is a scenario that we 
are not going to see. I am glad that you are planning.
    Ms. Christiansen. We are.
    Senator Murkowski. But it does hurt to hear that as we are 
anticipating yet another ugly and potentially very disastrous 
fire season, we have not been able to operate at 100 percent 
because of where we are with this fire borrowing situation.
    Senator Daines, Senator Udall and I are prepared to wrap 
and go over to yet another approps hearing. If you would like 
to close it out, you are certainly welcome to do so.
    Senator Daines. I have one question for the Chief.
    Senator Murkowski. Well, you have now got the gavel too, so 
you can have two questions.
    Senator Daines. Is that right?
    Senator Murkowski. Chief, thank you.
    Ms. Christiansen. Thank you very much. Appreciate it.
    Senator Udall. Thank you, Chief.
    Senator Daines [presiding]. Good. All right. Forest 
management is so important for Montana. I need to come back and 
ask another question. I ran out of time in the first round.
    I really appreciate your 2020's budget focus on reducing 
wildland fire risk. I too, like Members of this subcommittee, 
want to make sure the Forest Service has all the tools it needs 
to make our communities safer.
    We have taken some major steps if you look back at the 2014 
Farm Bill, the 2018 Omnibus, the 2018 Farm Bill, but like you 
stated very clearly in your testimony, there is a lot of work 
left to be done.
    In fact, a 2007 study from the Pacific Biodiversity 
Institute found that 95 percent of human-caused fires started 
within one-half mile of a road. It seems very logical to me 
that we should prioritize establishing effective fuel breaks 
alongside roads, particularly those in or near the wildland 
urban interface.
    My question is, Do you agree that creating healthy forests 
alongside Forest Service roads can help lessen wildfire risks 
and protect at-risk communities?
    Ms. Christiansen. Yes, Senator. It is all about placing 
those strategic fuel breaks, and the data does show that 
oftentimes the most strategic place for those fuel breaks, 
because of how the land form is and how the fires would burn 
but also from where the starts could be, as you said, are along 
roads.
    In fact, we have entered into a good-neighbor agreement 
with the California Department of Transportation so we can work 
together on just that.
    Senator Daines. Yes, 95 percent is a very compelling 
statistic.
    Ms. Christiansen. It is.
    Senator Daines. My follow-up on that would be, then, would 
you work with me to create a new statutory authority that 
expedites much needed treatments near roads?
    Ms. Christiansen. We would be glad to work with you on 
ability to get more strategic work done on the ground. That is 
a good way to do that.
    Senator Daines. Thank you, Chief.
    I have the gavel now.
    Ms. Christiansen. You have the gavel.
    Senator Daines. I do. Now I just got to get the right 
script.

                     ADDITIONAL COMMITTEE QUESTIONS

    So we will be keeping the record open for a week for 
questions that need to be placed on the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Forest Service for response subsequent to 
the hearing:]
               Questions Submitted to Vicki Christiansen
                Questions Submitted by Senator Tom Udall
    Question 1. The Boundary Waters Canoe Areas Wilderness Act requires 
the Forest Service to minimize the environmental impacts to the 
Boundary Waters, including impacts to water quality, of mineral 
development in the Superior National Forest. And the Forest Service has 
clear statutory consent rights in 16 U.S.C. 508(b) for mineral leasing 
activities on the Superior National Forest.

          1a. How is the Forest Service protecting its statutory 
        consent rights and living up its obligations under the Boundary 
        Waters Act?

          Answer. The Boundary Waters Act (16 U.S.C. 508(b)) and other 
        relevant authorities, require the Bureau of Land Management 
        (BLM) to receive Forest Service consent prior to the issuance 
        of any hardrock prospecting permits or leases within the 
        Superior National Forest. The Agency's position is that, if 
        consent is granted, the Forest Service may prescribe terms and 
        conditions or stipulations in the permit or lease for the 
        protection of surface resources, including resources associated 
        with the Boundary Waters Canoe Area Wilderness (BWCAW). Any 
        such consent, and related stipulations, is provided on a case-
        by-case basis, affording site-specific opportunity for surface 
        resource protection,
          For the recently-renewed hardrock leases issued to Twin 
        Metals Minnesota, the Forest Service prescribed stipulations 
        for surface resource protection even though the Department of 
        the Interior had concluded that the lessee was entitled to a 
        non-discretionary third renewal of the leases. The renewed 
        leases also provided for joint approval by the BLM and the 
        Forest Service for any mining plan of operation (MPO) proposed 
        by the lessee. When an MPO is submitted by the lessee, the 
        Forest Service will analyze potential impacts to BWCAW 
        characteristics, including potential impacts to water resources 
        within the Wilderness, and may prescribe additional 
        requirements as needed to protect those resources as necessary. 
        Additionally, the Forest Service stipulations in the renewed 
        leases expressly reserve the exercise of the Forest Service's 
        consent concerning any future lease renewal requests, which 
        includes another opportunity to provide additional Forest 
        Service stipulations to protect surface resources.

          1b. Has BLM engaged the Forest Service on revisions to the 
        1984 Interagency Agreement between the BLM and Forest Service 
        for Mineral Leasing, and what are the status of those 
        revisions?

          Answer. Yes. In 2017, the Forest Service and BLM worked to 
        finalize a Memorandum of Understanding (MOU) specific to Non-
        Coal Solid Leasable Minerals that would supersede the 1984 
        Interagency Agreement for Mineral Leasing. The agencies agreed 
        at that time to defer further work on the MOU until BLM could 
        permanently fill its national-level solid leasable minerals 
        subject matter expert position. The minerals subject matter 
        expert position has yet to be filled. Consequently, the MOU 
        remains in draft form awaiting final review and agreement.

    Question 2. The fiscal year 2020 budget request also includes a 
proposal to fundamentally alter the agency's appropriations programs. 
Among other changes, it consolidates all of the administrative, salary 
and benefit costs into one appropriation, it moves trails out of 
capital improvement, and research is absorbed into land management.

          2a. Can you tell us why you as Chief think these changes will 
        improve the Forest Service's ability to get things done and 
        provide Congress and the public with better financial 
        accountability and transparency?

          Answer. The proposed budget reform addresses execution 
        problems with the current budget structure, enables the agency 
        to strengthen internal controls and ensure it uses appropriated 
        funds as designated. It infuses transparency within cost types 
        by clearly defining and segregating fixed cost budget line 
        items from other programmatic costs. Included in the proposal 
        is the elimination of cost pools, which significantly increases 
        transparency while at the same time minimizes the associated 
        administrative burden and provides a more direct link between 
        appropriated funds and spending.
          The proposed streamlined budget structure would enable the 
        agency to be more responsive to emergent forest health needs, 
        reduce administrative burdens, and improve the agency's ability 
        to prioritize resources strategically. Rather than 
        appropriating funds to budget line items that have been added 
        to the Forest Service budget structure over time on an ad hoc 
        basis, the proposal aligns funding with the land management 
        goals of the agency and will lead to more efficient achievement 
        of the agency's mission.

          2b. What lessons learned from the Integrated Resource 
        Restoration proposal, which did not show significant 
        improvements in achieving the agency's mission despite removing 
        budgetary stovepipes, were used to inform this new proposal?

          Answer. The IRR pilot highlighted benefits, challenges and 
        best practices that are incorporated into budget reform. 
        Specifically, budget reform adopts a landscape approach to 
        include governance/prioritization, transparency of process 
        improvement, and a continued focus on building a community of 
        practice to facilitate learning during the transition.

          2c. Why will this budget structure reform succeed where 
        Integrated Resource Restoration failed?

          Answer. The IRR Pilot created an opportunity for increased 
        regional and forest-level collaboration and enhanced strategic 
        planning and prioritization to achieve landscape outcomes in 
        specific pilot regions. The budget reform also adopts a 
        landscape approach that incorporates best practices and lessons 
        learned from IRR. One of the benefits and big changes from IRR 
        of the proposed structure is the clear identification of fixed 
        costs. This allows the agency to better manage fixed costs and 
        enable greater flexibility to capitalize on opportunities to 
        leverage partnerships, streamline NEPA analysis, and study 
        ecological/weather conditions to maximize returns on landscape 
        management investments. The budget reform approach differs from 
        the IRR Pilot in that it will be implemented agency-wide and 
        will affect the entire agency budget structure.

    Question 3. We hear from stakeholders that funding for 
Collaborative Forest Landscape Restoration projects siphons funding 
away from other potential activities on a given Forest or in a specific 
Region.

          3a. How will you both fulfill the 10-year funding commitments 
        made when the CFLR agreements were signed and tackle additional 
        priorities that would be wrestling over the same scant 
        resources?

          Answer. Investing CFLR funds can mean there are fewer funds 
        for work on other landscapes, the focused investment also 
        attracts partner investments, including over $450 million from 
        2010 to 2018, and allows more meaningful reduction of forest 
        health risks. The Forest Service also works to align CFLR 
        projects with strategic assessments of forest health risks so 
        the necessary tradeoffs align with our broader strategies for 
        improving forest conditions.

    Question 4. The Interior Department's fiscal year 2020 budget 
included a set of legislative proposals providing new categorical 
exclusions for active forest management across both Interior and Forest 
Service lands.

          4a. How involved were you and your staff in developing those 
        proposals?

          Answer. The Forest Service worked with the Department of the 
        Interior on the development of the legislative proposal. A 
        legislative proposal is the beginning of our interaction with 
        Congress to address a particular issue or need. The Forest 
        Service looks forward to engaging with interested members to 
        improve our ability to responsibly accomplish more work on the 
        ground and provide better service on behalf of the American 
        people.

    Question 5. Just last year, in the Fire Fix legislation, we gave 
you new authority for a categorical exclusion for hazardous fuels and 
wildfire resilience projects, expanded the use of streamlined 
environmental review for fire and fuel breaks, extended the term of 
stewardship contracts to 20 years where wildfire is a significant risk, 
limited opportunities for litigation related to new critical habitat 
designations, set up a process to address vegetation management with 
utilities in rights of way, and amended the Good Neighbor Authority to 
allow the reconstruction of road that are necessary to carry out an 
agreement.

          5a. What specific steps have you taken to implement the new 
        authorities we gave you in 2018?

          Answer. The 2018 Omnibus Appropriation Act (2018 Act) amended 
        Section 605 of the 2003 Healthy Forests Restoration Act (HFRA) 
        to establish a Categorical Exclusion (CE) for wildfire 
        resilience projects. As of July 18, 2019, eight projects using 
        the HFRA Section 605 CE have a signed decision memo. The NEPA 
        analysis is currently in-progress on 11 projects using the CE. 
        The Forest Service continues to use this CE as well as the CE 
        authorized under HFRA Section 603 for authorized hazardous 
        fuels reduction projects to increase resilience on National 
        Forest System lands.
          The Forest Service has executed over 200 Good Neighbor 
        Authority (GNA) agreements in 37 States. Under the 2018 Farm 
        Bill expanded GNA, States have the authority to retain revenue 
        from GNA projects to be used on other projects on national 
        forests. Counties and Tribes can also now enter into GNA 
        agreements. In addition, we have:

          -- Implemented new guidance and agreement templates to 
        encourage the development of new and expanded GNA agreements.
          -- Initiated working with counties and Tribes to start new 
        projects.
          -- Implemented new policies and procedures to allow our 
        cooperators to engage in road maintenance projects under the 
        new authorities starting in 2018.
          -- Begun reviewing existing GNA agreements across the Nation 
        to identify appropriate places to most successfully apply the 
        expanded GNA.

          The 2018 Consolidated Appropriations Act expanded the 
        stewardship contracting authority, allowing the Forest Service 
        to develop 20-year stewardship contracts and agreements where 
        wildfire is of significant risk. The Forest Service currently 
        has in place the first 20-year stewardship agreement with the 
        National Wild Turkey Federation while two others are in the 
        process of being finalized. Every Forest Service region is 
        actively evaluating the potential for other 20-year stewardship 
        contracts and agreements, with two others currently under 
        development. These projects are looking at innovative ways of 
        increasing treatments of high-risk forests and developing new 
        economies.
          The 2018 Consolidated Appropriations Act also granted a new 
        utilities right of way authority. Under this new authority, in 
        March 2019, the Southwest Region (R5) approved a master 
        operation and maintenance plan (OMP), in conjunction with 
        issuance of a master special use permit, for Pacific Gas and 
        Electric's and Southern California Edison's electric 
        transmission and distribution lines on over 2,300 miles of 
        National Forest System lands in 15 national forests. The OMP 
        was approved under the newly enacted provisions in the 2018 
        Consolidated Appropriations Act governing vegetation 
        management, facility inspection, and operation and maintenance 
        plans for electric transmission and distribution lines.
          The Forest Service Washington Office program managers also 
        prepared briefings and summaries regarding the new authorities, 
        which were shared with line officers, regions, and field-level 
        specialists. Field staff are encouraged to use the new 
        authorities where applicable and efficient. Monitoring flags 
        were established in our performance tracking systems to 
        highlight when and where the new authorities are used.

    Question 6. Legacy Roads and Trails:

          6a. How is the Forest Service continuing to prioritize, 
        track, and meet goals related to its statutory responsibility 
        to protect water quality on National Forest lands and address 
        the impacts on water quality from roads without a dedicated 
        Legacy Roads and Trails budget line item?

          Answer. Although this budget line item was merged into the 
        agency's Roads budget line item, the Forest Service has not 
        changed its focus on achieving the outcomes envisioned for the 
        Legacy Roads and Trails program. The agency continues to use 
        and develop methods to prioritize and track our statutory 
        responsibility to protect water quality on the National Forest 
        System lands. That includes tracking road decommissioning, road 
        maintenance activities, and road construction. Beginning in 
        fiscal year 2017, the Forest Service initiated a 5-year 
        strategic approach to accomplish another 1,000 culverts removed 
        or replaced for aquatic organism passage (AOP) and flood 
        resiliency. The agency is on track to exceed that goal by 2021.

          6b. What are the fiscal year 2020 targets for the following 
        activities: road removal, culvert removal, road upgrades and 
        culvert upgrades?

          Answer. In a shift towards more outcome-based performance 
        metrics, the Forest Service no longer assigns activity-specific 
        targets for its programs, including those specific to drainage 
        improvements. The agency does, however, track key metrics for 
        road improvements and decommissioning on National Forest 
        Service system, and non-system, roads.

          6c. What are the actual accomplishments for those four 
        activities for the past 5 years by region?

          Answer. See tables below.

                                        USDA FOREST SERVICE, ROAD REMOVAL
                                          Accomplishment Report (miles)
                                            Fiscal Year(s) 2014-2018
----------------------------------------------------------------------------------------------------------------
                                                                                                          Grand
                       Region                           2014      2015      2016      2017      2018      Total
----------------------------------------------------------------------------------------------------------------
Northern (01).......................................         0        11       240       530        77       781
Rocky Mountain (02).................................         3         3        38        23        19        67
Southwestern (03)...................................         0         0        21         6         3        27
Intermountain (04)..................................         0         0        18        14         0        32
Pacific Southwest (05)..............................         0        15         6        19        34        40
Pacific Northwest (06)..............................        37        42     1,132        64     1,588     1,275
Southern (08).......................................         0         0        12        45         9        57
Eastern (09)........................................        39         0        39       100        57       178
Alaska (10).........................................         0         0        19         0         0        19
                                                     -----------------------------------------------------------
      Forest Service Total..........................        79        71     1,524       801     1,786     2,476
----------------------------------------------------------------------------------------------------------------


                                        USDA FOREST SERVICE, ROAD UPGRADE
                                          Accomplishment Report (miles)
                                            Fiscal Year(s) 2014-2018
----------------------------------------------------------------------------------------------------------------
                                                                                                          Grand
                       Region                           2014      2015      2016      2017      2018      Total
----------------------------------------------------------------------------------------------------------------
Northern (01).......................................        10        29     3,416       393     6,611     3,849
Rocky Mountain (02).................................        41        93     2,402       815       519     3,351
Southwestern (03)...................................       123    15,040     4,441     2,244       259    21,848
Intermountain (04)..................................         0        11    85,620     1,014       131    86,645
Pacific Southwest (05)..............................         0    50,662     2,973     1,381    17,005    55,017
Pacific Northwest (06)..............................     9,691     6,292     7,053     1,211    14,730    24,247
Southern (08).......................................         3         2        80       438       252       524
Eastern (09)........................................       133        36    82,116     4,243       723    86,529
Alaska (10).........................................        19    23,485       227         0         0    23,731
                                                     -----------------------------------------------------------
      Forest Service Total..........................    10,022    95,649   188,329    11,739    40,229   305,739
----------------------------------------------------------------------------------------------------------------


                                      USDA FOREST SERVICE, CULVERT REMOVAL
                                       Accomplishment Report (Linear Feet)
                                            Fiscal Year(s) 2014-2018
----------------------------------------------------------------------------------------------------------------
                                                                                                          Grand
                       Region                           2014      2015      2016      2017      2018      Total
----------------------------------------------------------------------------------------------------------------
Northern (01).......................................         0         7        82        16       155       105
Rocky Mountain (02).................................         7        46         5        26         9        84
Southwestern (03)...................................         0         0         0         1         0         1
Intermountain (04)..................................         0         0       144        21         4       165
Pacific Southwest (05)..............................         0         4        29        10        25        43
Pacific Northwest (06)..............................       135       226       430       103       248       894
Southern (08).......................................         0         0        92         1         0        93
Eastern (09)........................................         0         0        26         7         3        33
Alaska (10).........................................        10        55       300        22         0       387
                                                     -----------------------------------------------------------
      Forest Service Total..........................       152       338     1,108       207       444     1,805
----------------------------------------------------------------------------------------------------------------


                                      USDA FOREST SERVICE, CULVERT UPGRADE
                                       Accomplishment Report (Linear Feet)
                                            Fiscal Year(s) 2014-2018
----------------------------------------------------------------------------------------------------------------
                                                                                                          Grand
                       Region                           2014      2015      2016      2017      2018      Total
----------------------------------------------------------------------------------------------------------------
Northern (01).......................................         7       145       680       193       303     1,025
Rocky Mountain (02).................................        48        55       218       222        61       543
Southwestern (03)...................................         0       206       172        45       423       423
Intermountain (04)..................................       274       191         4     4,685       697     5,153
Pacific Southwest (05)..............................         0         9       419       261       341       689
Pacific Northwest (06)..............................       540       672       739       523       390     2,474
Southern (08).......................................         0         1       126        35        30       162
Eastern (09)........................................       185        54       328       536       351     1,103
Alaska (10).........................................       335       325       868        48         2     1,576
                                                     -----------------------------------------------------------
      Forest Service Total..........................     1,389     1,658     3,554     6,548     2,598    13,148
----------------------------------------------------------------------------------------------------------------

    Question 7. Land acquisition, exchanges, and donations are all 
important tools for reducing the checkerboard ownership that creates 
management problems and heightens fire risks. They are also an 
important tool for providing recreational access to places hunters, 
anglers, and others want to get to in the backcountry. Therefore, there 
are real costs, both a management cost and a social and economic cost 
to rural areas, if these programs did not exist. The Forest Legacy 
program works similarly, but with State and private lands. The States 
nominate working forest lands that should be conserved so that they can 
continue being just that, a working forest and an economic driver in 
the local community.

          7a. When determining to zero out all land acquisition 
        programs, did your staff do an analysis of what the costs are 
        for additional fire and watershed management, road maintenance, 
        fencing, and other requirements for private inholdings across 
        the system if these programs did not exist?

          Answer. The administration is focused on caring for the lands 
        the Forest Service currently owns. The Forest Service budget 
        seeks to directly address the millions of acres at risk for 
        wildfire by requesting $450 million for hazardous fuels 
        reduction, and addressing the Forest Service's $5 billion 
        infrastructure maintenance backlog by retaining a portion of 
        mineral receipts from the proposed Public Lands Infrastructure 
        Fund legislation.

          7b. Without Forest Legacy, how do you propose to assist the 
        States in preventing the fragmentation of environmentally 
        significant forests?

          Answer. The Working Forest Lands Program (formerly the Forest 
        Stewardship Program) works in partnership with State forestry 
        agencies to connect private landowners with the information and 
        tools they need to actively manage their forests. Actively 
        managed forests provide timber, fuel wood, wildlife habitat, 
        watershed protection, and recreational opportunities; and help 
        create jobs in rural communities by sustaining local markets 
        for forest products.

          7c. Isn't this program an important part of a Shared 
        Stewardship vision for our forested lands?

          Answer. Promoting well managed forests across all ownerships 
        is an important part of the agency's Shared Stewardship vision. 
        The agency is currently working with States to undertake a 
        comprehensive review and update of their State Forest Action 
        Plans. State Forest Action Plans offer long-term plans for 
        investing State, Federal, and other resources where they can be 
        most effective in achieving national conservation goals.

    Question 8. In 2017, Secretary Zinke undertook a review of National 
Monuments, and coordinated with Secretary Purdue on those monuments 
under Forest Service jurisdiction. This resulted in a removal of Forest 
Service lands from the Bears Ears designation, despite reports that 
USDA did not recommend any Forest Service acreage for removal.

          8a. Since the President's Bears Ears proclamation, has the 
        Forest Service engaged with the Office of the Secretary or with 
        the Department of the Interior on additional changes to any 
        monuments?

          Answer. No. Since the President's December 2017 Proclamation 
        pertaining to Bears Ears National Monument, the Forest Service 
        has not engaged with the Office of the Secretary or with the 
        Department of the Interior on additional changes to any 
        monuments.

    Question 9. The Interior Department implemented a new regional 
structure last year and is proposing to relocate staff out of the 
Capital Region and other longtime regional offices, and USDA is 
proposing to move facilities out of the Capital Region as well.

          9a. Has the Forest Service been tasked with or engaged in any 
        similar relocation or reorganization discussions, or any review 
        of its Washington Office, regional structure or office 
        locations?

          Answer. The Forest Service has not been tasked with or 
        engaged in any similar relocations or reorganization 
        discussions, or any review of its Washington Office, regional 
        structure or office locations.

          9b. If so, what funds in the fiscal year 2020 Budget are 
        associated with that activity?

          Answer. The Forest Service does not have any funding in the 
        fiscal year 2020 Budget associated with this activity.

    Question 10. The Forest Service is currently reviewing State 
requests for exceptions to the Roadless Rule. I have heard from Tribal 
governments that government-to-government consultations have been 
lacking in the current process. Additionally, the proclamation 
eliminating portions of the Bears Ears National Monument cited existing 
protections, such as Inventoried Roadless Areas, as justification for 
removing those areas from monument status. The State of Utah's request 
for a State-specific Roadless Rule includes removal of those same 
Roadless Area protections.

          10a. When and how will you engage with Tribal governments 
        before releasing a draft environmental impact statement? Will 
        that engagement include subsistence hearings?

          Answer. Only one petition for a State-specific roadless rule 
        is under consideration by the Forest Service. This petition is 
        for the State of Alaska, where subsistence is a central issue. 
        Government-to-government consultation is ongoing with Alaska 
        Tribes and Alaska Native Corporations as part of the rulemaking 
        process. This includes upcoming meetings with Agency and 
        Department officials.

          10b. How will you ensure consistency with the 
        administration's support for these Roadless protections as you 
        consider the State of Utah's petition?

          Answer. The Forest Service has not initiated rulemaking for a 
        Utah-specific roadless rule.

          10c. Given the statistical likelihood of human-caused fires 
        starting near roads, will exceptions to the Roadless Rule 
        increase the risk of wildfire ignitions in those areas, and are 
        those risks being analyzed in the agency's review of the 
        States' requests?

          Answer. The issue of human-caused fires starting near roads 
        was raised in the context of the petition for roadless rule for 
        Utah. However, Forest Service has not initiated rulemaking for 
        a Utah-specific roadless rule. The State's petition for 
        rulemaking is currently under review. The State of Utah and the 
        Forest Service are addressing the threat of unwanted fire to 
        communities and watersheds through the Shared Stewardship 
        agreement.

    Question 11. Shared Stewardship:

          11a. How are you ensuring that Tribes, local communities, 
        collaborative groups and other stakeholders, in addition to 
        States, are involved in the decisions being made through Shared 
        Stewardship agreements?

          Answer. At the regional, State and national levels the Forest 
        Service has engaged with Tribes, local communities, 
        collaborative groups and other stakeholders, together with the 
        State, and separately, in the context of Shared Stewardship.
          We have engaged with the Rural Voices of Conservation 
        Coalition to study how, and provide guidance to, local 
        collaborative groups engaging in shared stewardship and the 
        decisions that are made in that context. National roundtable 
        discussions have and continue to occur with stakeholders. 
        Forest Service field units continue to engage stakeholders, 
        partners, Tribes, local communities, and others at the level of 
        interest on projects and programs that contribute to achieving 
        the vision of shared stewardship. To date, Shared Stewardship 
        agreements have been between the States and the Forest Service. 
        However, the agency is planning some expected future agreements 
        are (either: being planned or being developed) with other 
        partners as signatories, such as USDA's Natural Resource 
        Conservation Service and potentially Tribes/Tribal 
        organizations.
          These agreements will use all available tools and authorities 
        to achieve mutually desired results and outcomes. New 
        authorities provide us opportunities to involve others in the 
        ``implementation'' of Shared Stewardship priorities.
          The Forest Service is building a ``Guidelines for 
        Implementing the Good Neighbor Authority (GNA)'' document that 
        answers questions posed to the Forest Service by States, 
        counties and Tribes as to how the new GNA authorities will be 
        implemented. Along with the Guidelines, plans are in place to 
        hold webinars to discuss the new authorities with our external 
        partners in August.
          The Forest Service is actively engaged in full partnership 
        with the Intertribal Timber Council (ITC), a national 
        consortium of Indian Tribes, Alaska Native Corporations, and 
        individuals to implement tribally-relevant authorities in the 
        Forestry title of the 2018 Farm Bill and other legislation. The 
        agency has executed a challenge cost-share agreement with ITC 
        to provide subject-matter expertise on Tribal forest 
        management, as well as to help the Forest Service understand 
        the Indian Self-Determination and Education Assistance Act 
        Public Law 93-638 authority, as amended, which is new to the 
        agency. In addition to this close partnership, the Forest 
        Service has also undertaken substantial outreach to inform 
        Indian Country of new authorities and to develop new or amended 
        policy in partnership and consultation with Tribes. On May 15, 
        2019, the Forest Service hosted a national Farm Bill Listening 
        Session to familiarize Tribes and Forest Service employees with 
        new Farm Bill provisions that impact Tribes and to hear their 
        questions and ideas for implementation. The agency also 
        consulted with the Bureau of Indian Affairs (BIA) and the 
        Bureau of Land Management at interagency coordination meetings 
        and coordinated with the BIA on a national Tribal consultation, 
        related to the Tribal Forest Protection Act (Public Law 115-
        325). The Forest Service also participated in meetings of large 
        regional and national Tribal organizations, including the 
        National Congress of American Indians, Affiliated Tribes of 
        Northwest Indians, the Native American Fish & Wildlife Society, 
        as well as the USDA Secretary's Farm Bill Consultation.
          The Forest Service has also coordinated with counties in the 
        development of the Good Neighbor templates and is working on 
        implementation of Good Neighbor Projects with several counties.

          11b. How will the administration fulfill its commitment to 
        working more closely with States in the Secretary's Shared 
        Stewardship Initiative and assisting them with their forest 
        action plans without the Landscape Scale Restoration Program, 
        which funds the top national priorities in States' forest 
        action plans?

          Answer. The Forest Service has and will continue to supply 
        States with data used to inform State Action Plans, regardless 
        of the status of the Landscape Scale Restoration Program. The 
        agency will also support States through the Working Forest 
        Lands program.

          11c. What funding within this Budget that correspond with the 
        desired outcomes of the Shared Stewardship Executive Order?

          Answer. Shared Stewardship agreements do not rigidly define 
        funding commitments. Shared Stewardship projects will be funded 
        from diverse programs and appropriate budget line items, 
        including partner funding.

          11d. What are the criteria being used to evaluate the 
        performance of Shared Stewardship agreements and how will 
        performance indicators help guide prioritization, 
        implementation, and evaluation?

          Answer. The Forest Service tracks performance measures that 
        reflect some key outputs of active management, such as 
        hazardous fuels treatments and post-fire rehabilitation of 
        land. Currently, there are eight Shared Stewardship agreements 
        with: the Western Governors Association; and the States of 
        Idaho, Utah, Washington, Montana, Oregon, Arkansas, and North 
        Carolina. Key outputs will be analyzed at multiple levels 
        within the agency to inform decisions on where to focus efforts 
        and funding.

    Question 12. State and Volunteer Fire Assistance are proposed for 
cuts of 12 and 21 percent respectively.

          12a. Can you elaborate on the impacts of those cuts--do you 
        know how many fewer fire engines or equipment our State and 
        local partners will be able to purchase and outfit?

          Answer. The administration is focused on caring for the lands 
        the Forest Service currently owns. The Forest Service budget 
        seeks to fully support our Federal firefighting capacity, 
        directly address the millions of acres at risk for wildfire and 
        the Forest Service's $5 billion infrastructure maintenance 
        backlog. For the National Fire Capacity (previously State Fire 
        Assistance) program, a 12 percent reduction in funding would in 
        States being able to purchase approximately 65 fewer fire 
        engines or 25 bulldozers and transport units. For the Rural 
        Fire Capacity (previously Volunteer Fire Assistance) program, a 
        21 percent reduction in funding would result in approximately 
        700 fewer grants being provided to volunteer fire departments.

          12b. Won't fewer dollars for States and the volunteer fire 
        departments with which you have mutual aid agreements put all 
        private and public lands, including National Forests, at 
        greater risk?

          Answer. Reduced funding for the National and Rural Fire 
        Capacity Programs would impact maintaining fire response 
        capabilities of State and local firefighting resources at the 
        local, State and national levels.
          In addition to initial responses, funding from these two 
        programs supports hazardous fuels reduction treatments and fire 
        prevention education. Under the strategy of Shared Stewardship, 
        State forestry agencies and many local departments support 
        hazardous fuels reduction activities such as prescribed fire. 
        These activities reduce risk to communities through treatments 
        on State, local, and Federal lands.

    Question 13. Community and urban trees can be considered critical 
infrastructure for both rural communities and cities and State 
Foresters utilize the Community and Urban Forestry Program to make 
communities more livable, healthier, energy efficient and vibrant by 
funding seed money for the planning, planting, and long-term care of 
trees.

          13a. How does the elimination of funding for this program in 
        the President's budget advance the administration's goals of 
        building infrastructure and assisting States and under-served 
        communities?

          Answer. The Forest Service has a number of State and Private 
        Forestry programs that serve forests adjacent to rural 
        communities and cities. Providing technical and financial 
        assistance through our Working Forest Lands (previously Forest 
        Stewardship) program will continue to improve and enhance 
        benefits from privately owned forests to adjacent communities.
          In fiscal year 2020, the administration is focused on caring 
        for the lands the Forest Service currently owns, especially 
        supporting forest management and wildland fire risk reduction.

          13b. What outreach is the Forest Service doing to States to 
        determine the impact of these proposed funding cuts on 
        implementing State forest conservation plans?

          Answer. National Association of State Foresters (NASF) 
        leadership and Forest Service leadership meet quarterly in a 
        forum known as the State and Private Forestry Board to discuss 
        potential Federal funding impacts to States. The Urban and 
        Community Forestry (UCF) program National Program Leader and 
        staff communicate quarterly with the Chair of the NASF UCF 
        Committee regarding State delivery of the UCF Program and 
        priorities outlined in each State's forest conservation plans. 
        Forest Service Regional UCF Program Managers communicate at 
        least monthly with State forestry UCF Program Coordinators to 
        gauge funding impact at the local community level and report 
        back to National UCF Director and staff.

    Question 14. Workplace Misconduct:

          14a. What actions have been taken by Forest Service 
        leadership in response to the February 14, 2019 ``Forest 
        Service Initiatives to Address Workplace Misconduct'' USDA 
        Office of Inspector General Report?

          Answer. The Forest Service has adopted all the 
        recommendations made in the USDA Office of Inspector General's 
        report of Forest Service Initiatives to Address Workplace 
        Misconduct. Some of the initiatives adopted include:

          -- Require all 9,000 hiring managers to complete ``Hiring 
        Matters'' training, a training that identifies best management 
        practices for evaluating candidates.
          -- Require hiring managers to conduct reference checks prior 
        to making all hiring decisions.
          -- Incorporate a new performance metric on the work 
        environment for all supervisors to assess efforts by current 
        managers and supervisors to create and maintain a safe, 
        respectful, and resilient work environment.

          14b. Have all of the recommendations in the report been fully 
        implemented? Please identify any recommendations that have not 
        been fully implemented and the status of implementation. If 
        there are any recommendations or aspects of the recommendations 
        that the agency does not intend to implement, please provide an 
        explanation of why those recommendations will not be 
        implemented.

          Answer. All recommendations have been fully implemented.

          14c. Are there additional actions the Forest Service is 
        taking to improve the workplace that were not recommended by 
        the Inspector General?

          Answer. In addition to the recommendations made by the 
        Inspector General, the Forest Service has implemented the 
        following actions:
          Alcohol is often a contributing factor in cases of assault, 
        sexual assault, harassment, and other inappropriate behaviors. 
        For the safety of employees, the agency banned the possession 
        and consumption of alcohol in shared government-furnished 
        quarters. The agency-wide alcohol ban was issued in July of 
        2019. Violation of this policy may result in the termination of 
        the Housing Assignment Agreement.
          In the summer of 2019, Forest Service permanent, temporary, 
        and term employees were invited to participate in a survey 
        designed to assess work satisfaction, perceptions of the work 
        environment, and workplace experiences. Results of the survey 
        will be used as a baseline to track progress toward improving 
        the agency's culture.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
    Question 1. The Supervisor's Office and visitor center for the 
Green Mountain and Finger Lakes National Forest (GMFL) in Vermont and 
New York occupies leased space in downtown Rutland, Vermont. The 
location is not on National Forest land, lease costs are high, it is 
only a short term, and the building is for sale. The US Forest Service 
has selected the site for a new Supervisor's office that is centrally 
located on the Forest Service-owned land, fronting on a State highway, 
with high visibility and good access. The Forest Service has invested 
in full site assessments and preliminary designs. This site is easily 
developed with good potential for interpretive trails and is close to 
the Appalachian National Scenic Trail and the Vermont Long Trail. It is 
my understanding that this project is ready to move quickly to 
construction. It is a real possibility that without a Supervisor's 
Office in Federal ownership available within the next few years the 
General Services Administration (GSA) will require for the Supervisor's 
office to be moved into federally owned excess space within an older 
downtown U.S. Post Office building in Rutland. This has been previously 
proposed by GSA.

          1a. Where does the Supervisor's Office rank among capital 
        improvement program and construction priorities for Region 9 of 
        the National Forest system in fiscal year 2019 and fiscal year 
        2020?

          Answer. The Green Mountain and Finger Lakes National Forests 
        Supervisor's Office project was the 10th project listed in the 
        fiscal year 2020 Regional Capital Improvement assessment. 
        Region 9 of the National Forest System requested no project 
        funding in fiscal year 2019 for the Supervisor's Office 
        project.

          1b. Does the Forest Service plan to move forward to complete 
        the design and construction on the GMFL Supervisor's Office in 
        fiscal year 2020? If not, why not?

          Answer. No. The Forest Service will focus Capital Investment 
        Program funding on critical maintenance rather than increasing 
        the number of agency-owned facilities.

          1c. Do you believe that the U.S. Forest Service will be best 
        able to deliver its mission for my Vermont constituents and 
        others operating out of its own facility, on the Forest, with 
        outdoor amenities, or from excess space in a downtown Post 
        Office building?

          Answer. The Forest Service will be better suited for the 
        Supervisor's Office to operate out of a different facility than 
        the old Post Office building. The downtown Post Office provides 
        little space or access that will suffice for public engagement 
        for permits, visitor information, etc. In addition, there is 
        insufficient space to support all of the necessary equipment 
        that is being used at the current Supervisor's Office. In the 
        case of the Green Mountain National Forest Supervisor's Office, 
        the Eastern Region recommends that a new leased facility other 
        than the Post Office building would most effectively deliver 
        the agency's mission.
                                 ______
                                 
              Questions Submitted by Senator Steve Daines
    Question 1. Chief Christiansen, Montana is home to an abundance of 
outdoor recreation, which contributes to our $7 billion outdoor 
economy. Unfortunately, lengthy, burdensome, and overly complicated 
NEPA policies delay permitting and hurt our small businesses that rely 
on USFS lands. It is my understanding that the Trump administration and 
USDA are working to streamline NEPA for special use permits, however, I 
have heard concerns that in our Montana National Forests we are not 
seeing the benefit from these policy changes. Instead NEPA policies and 
regulations have become so burdensome that our winter recreation sites 
are suffering and therefore unable to provide their guests with the 
same quality of service.

          1a. Can you commit to me to work with our winter recreation 
        businesses in Montana to streamline special use permits on our 
        National Forests so they can continue to provide services to 
        recreationists and contribute to Montana's outdoor economy?

          Answer. The Forest Service will gladly work with outdoor 
        recreation businesses in Montana to improve the process for 
        issuing special use authorizations for use and occupancy of 
        national forests in Montana, consistent with our laws, 
        regulations, and policies.
          We are working to simplify the permitting process and 
        implementing online permitting for outfitters, guides, and 
        other small businesses. Developed in fiscal year 2018, and 
        piloted in fiscal year 2019, online permitting will enhance 
        customer service from the Forest Service and increase economic 
        benefits to communities.
                                 ______
                                 
               Questions Submitted by Senator Marco Rubio
    Question 1. Florida and Georgia combined suffered about $2 billion 
in timber losses as a result of Hurricane Michael. These losses have 
threatened the survival of some of the biggest timber producers and 
lumber yards, who happen to be important employers in an economically 
underdeveloped area of my State. But worse than that, it has devastated 
families and retirees, who invested in their own small timber plots to 
support their future goals and dreams. Immediately after the storm, the 
focus was timber salvage and debris clearing operations. But now, we 
need to develop medium and long range plans to re-grow the industry, 
and the economic opportunities it provided to the people living in 
these communities. And we need to remain vigilant over the enhanced 
threat of wildfire and insect pest and disease outbreaks. With so much 
timber lost, it is important for mills in the area, and all the support 
services that depend on mill activity, to have a long-term annual 
supply commitment from the nearby Apalachicola National Forest for the 
next 20 plus years until private landowners impacted by the hurricane 
can re-establish the area's timber base. I appreciate the work USFS has 
done to date on this issue.

          1a. In order for this hard hit area to move forward, is the 
        Forest Service ready to make a long-term annual supply 
        commitment from the Apalachicola National Forest to reeling 
        Panhandle timber mills and associated industries?

          Answer. The Forest Service recognizes the impact Hurricane 
        Michael has had in the panhandle area, including the 
        Apalachicola National Forest (ANF). Some of the most productive 
        areas on the forest were affected. Other areas present harvest 
        location challenges due to damaged roads, high water, and 
        saturated soil conditions. The National Forests of Florida 
        (NFF), is working with the local communities and partners to 
        offer a predictable and sustainable supply of wood products. 
        The NFF will continue to explore opportunities to work with and 
        support local industry. The NFF is committed to maximizing the 
        timber sale volume offered annually within the range allowed by 
        environmental and market factors

          1b. If so, how do you plan on implementing such a commitment, 
        and what is the timeframe for implementation?

          Answer. The Apalachicola National Forest, working with the 
        State of Florida through the Good Neighbor Authority (GNA), 
        offered timber sales beginning in November of 2018. To date, 
        seven timber sales have been offered, and the forest continues 
        to prepare additional timber sales. The forest is currently 
        contracting for facilities and infrastructure repair to recover 
        from Hurricane Michael, more than 300 miles of roads on the ANF 
        that could be used for future timber harvest work.

          1c. Are there any specific regulations that can be modified 
        in order to appropriately balance important environmental 
        protections with the economic development needs of the 
        surrounding community?

          Answer. The current laws and regulations appropriately 
        balance environmental protections and economic development.

          1d. How important are Good Neighbor Authority agreements 
        between the Federal Government and the States to achieving the 
        goals and objectives of the Forest Service?

          Answer. It is very important to the agency that the GNA 
        program is successful. Without the States, counties, and Tribes 
        it would be very difficult for the agency to meet its 
        restoration goals to restore healthy forests across the Nation. 
        Not only will the cooperators be able to assist in restoring 
        healthy forests, the agency sees this as an opportunity to 
        increase timber production from the national forests which will 
        in turn benefit the local communities. A good example is on the 
        Apalachicola National Forest where the partnership between all 
        the local governments will allow for expanded and organized 
        responses to this emergency and others that may come.

          1e. Are there additional authorities related to Good Neighbor 
        Agreements that could be modified or expanded to better 
        encourage these useful Federal-State partnerships?

          Answer. There are exciting new ways the agency can increase 
        the amount of restoration activity that is being implemented 
        under the new GNA authorities, authorized in the 2018 Omnibus 
        Act and the 2018 Farm Bill. The Forest Service is using the 
        authorities provided, which are adequate for now, but the 
        agency believes it is necessary to consider whether counties 
        and Tribes should have the same authority as States to retain 
        the revenues generated from GNA timber sales and use them on 
        other Good Neighbor projects . These expansions could increase 
        the activities being implemented under GNA.

    Question 2. I have heard concerns that the proposed funding level 
for the State and Private Forestry programs in the disaster 
supplemental bill that failed last month was inadequate at just $12 
million to support States in their efforts to promote forestry recovery 
after the impacts of both Hurricane Michael and Florence. The National 
Association of State Foresters and Florida's State Forester, Jim 
Karels, believe the true need is closer to $47 million.

          2a. If $12 million accurately represents the Forest Service's 
        request to Congress, how did you derive that figure?

          Answer. Please see the chart below in response to question 
        2b.

          2b. If that figure doesn't represent the Forest Service's 
        request, what is the true need for supplemental funding for the 
        State and Private Forestry programs so we can get it right in 
        the new draft?

          Answer. Additional supplemental appropriations for disaster 
        relief were enacted on June 6, 2019 (Public Law 116-20), which 
        provided $12 million in State and Private Forestry funds for 
        necessary expenses related to Hurricane's Florence and Michael. 
        The Forest Service plans to aid the affected States in the 
        Southern region as follows:

  PUBLIC LAW 116-20--SOUTHERN REGION DISASTER SUPPLEMENTAL FUNDING PLAN
------------------------------------------------------------------------
                      Program                          Planned Amount
------------------------------------------------------------------------
SPF
    Forest Health, Cooperative Lands..............  $400,891
    Forest Stewardship............................  $1,496,659
    Community Forestry............................  $828,508
    Fire Protection Programs......................  $9,273,942
                                                   ---------------------
        Total, SPF................................  $12,000,000
------------------------------------------------------------------------

                          SUBCOMMITTEE RECESS

    Senator Daines. And with that, we will conclude this 
hearing.
    Ms. Christiansen. Thank you.
    [Whereupon, at 10:54 a.m., Wednesday, May 15, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
